October 2011 – March 2012
	
	
	
	

                   	
                   Message	From	the	Deputy	Inspector	General	
                                                                                                         	
	
	

	
The	 U.S.	 Agency	 for	 International	 Development	 (USAID)	 Office	 of	 Inspector	 General	 (OIG)	 is	
responsible	for	providing	oversight	of	USAID	programs	and	activities.		Our	work	promotes	the	
integrity	of	USAID	programs	and	activities	and	the	efficiency	and	effectiveness	of	its	assistance	
efforts	around	the	globe.		Provided	limited	oversight	resources,	OIG	takes	a	targeted	approach	
to	executing	its	mission,	prioritizing	oversight	activities	in	high‐risk	
settings	of	particular	interest	to	Congress	and	the	Administration.		
	
USAID	 programs	 and	 activities	 in	 Iraq	 are	 undertaken	 in	 a	
challenging	 operating	 environment	 that	 exposes	 them	 to	 increased	
risks	 of	 fraud,	 waste,	 and	 abuse.	 	 Because	 the	 programs	 in	 Iraq	
continue	 to	 support	 broader	 national	 security	 interests	 as	 well	 as	
stabilization	 and	 development	 goals,	 oversight	 of	 them	 is	 an	 OIG	
priority.	
	
OIG	 has	 been	 providing	 oversight	 of	 USAID	 activities	 in	 Iraq	 since	 the	 Agency	 began	 its	
reconstruction and development effort there in 2003. Our	oversight	there	covers	the	full	spectrum	
of	USAID	programs,	and	helps	ensure	that	taxpayer	dollars	are	being	spent	wisely.	

	
We	 publish	 the	 following	 report	 to	 increase	 transparency	 about	 our	 work	 and	 observations	
regarding	 assistance	 programs	 in	 Iraq.	 	 This	 edition	 of	 the	 report	 describes	 OIG’s	 oversight	
program	in	Iraq	and	highlight	our	activities	from	October	2011	to	March	2012.			
	
	
	
                                              Michael	G.	Carroll	
                                              Deputy	Inspector	General	
	                             	




 
                                                Table	of	Contents	
 

USAID	OIG	Oversight	Activities	...........................................................................................................	1	
	
Iraq	Oversight	Program	and	Activities	............................................................................................	7	
	
Appendixes	...............................................................................................................................................	20	
	
      Appendix	1	–	Recommendations	to	USAID	Pending		
      Management	Decisions	..........................................................................................................	20	
	
      Appendix	2	–	Recommendations	to	USAID	Pending		
      Final	Action	After	6	Months	.................................................................................................	23	
      	
      Appendix	3	–	Amounts	Audited,	Questioned	Costs,	and	
      Funds	Recommended	to	Be	Put	to	Better	Use	..............................................................	25	
      	
      Appendix	4	–	Completed	Audit	Reports	..........................................................................	41	
      	
      Appendix	5	–	Summaries	of	Performance	Audit	and	Review	
      Findings,	FYs	2010–2012......................................................................................................	56	
      	
Abbreviations	..........................................................................................................................................	61	
	
	




 
	
	
	
USAID	Office	of	Inspector	General	Oversight	
	
Established	 pursuant	 to	 the	 Inspector	 General	 Act,	
                                                                  Inspector	General	Act	of	1978	
Public	Law	95‐452	(October	12,	1978),	the	Office	of	In‐           	

                                                                  The	 Inspector	 General	 Act	 establishes	
spector	General	is	an	independent	oversight	organiza‐
                                                                  Offices	of	Inspector	General	as	independ‐
tion	 within	 USAID.	 	 Responsible	 for	 oversight	 of	 ap‐
                                                                  ent,	 objective	 units	 responsible	 for	 con‐
proximately	$31	billion	in	foreign	assistance	funds,	OIG	         ducting	and	supervising	audits	and	inves‐
received	$51	million	in	fiscal	year	(FY)	2012	appropri‐           tigations	 of	 agency	 programs	 and	 activi‐
ations.	                                                          ties.		It	directs	OIGs	to	provide	leadership	
	                                                                 and	 coordination	 and	 recommend	 poli‐
OIG	 executes	 its	 mission	 to	 protect	 and	 enhance	 the	      cies	to	promote	economy,	efficiency,	and	
integrity	 of	 the	 U.S.	 Government’s	 foreign	 assistance	      effectiveness,	 and	 prevent	 and	 detect	
programs	through	audit	and	investigative	efforts.		OIG	           fraud	 and	 abuse.	 	 The	 Act	 also	 requires	
maintains	a	staff	of	approximately	195	direct‐hire	em‐            Inspectors	General	to	keep	Congress	and	
                                                                  the	head	of	the	agency	fully	and	currently	
ployees	and	38	other	personnel	that	includes	auditors,	
                                                                  informed	 about	 related	 problems	 and	
certified	 public	 accountants,	 investigators,	 and	
                                                                  deficiencies	 and	 the	 need	 for	 and	 pro‐
program	analysts,	as	well	as	specialists	in	management,	
                                                                  gress	of	corrective	actions.	
budget,	 information	 technology,	 and	 personnel	                	
operations.			                                                    The	 Inspector	 General	 Act	 gives	 the	
	                                                                 Inspector	General	the	authority	to:	
Approximately	 70	 direct‐hire	 OIG	 positions	 are	 based	       	

                                                                     Make	investigations	and	reports	the	
overseas,	 and	 the	 remaining	 workforce	 is	 stationed	 in	
                                                                      Inspector	 General	 deems	 necessary	
Washington,	DC.		OIG	has	overseas	offices	in	Baghdad,	                or	desirable.	
Cairo,	Dakar,	Kabul,	Islamabad,	Manila,	Port‐au‐Prince,	          	


Pretoria,	San	Salvador,	and	Tel	Aviv.		                              Access	all	records	and	other	materi‐
                                                                      als	 related	 to	 programs	 and	 opera‐
	
                                                                      tions	 under	 the	 Inspector	 General’s	
Some	 of	 OIG’s	 work	 is	 mandated	 by	 statute	 or	 regula‐
                                                                      purview.	
tion.		Other	work	is	performed	at	OIG’s	discretion	after	         	

considering	 risks	 associated	 with	 program	 activities	           Require	 production	 of	 information	
and	assessing	potential	internal	control	vulnerabilities.		           and	 documentary	 evidence	 by	 sub‐
OIG	places	a	priority	on	oversight	of	foreign	assistance	             poena.	
                                                                  	

efforts	 in	 Iraq	 and	 balances	 related	 critical	 oversight	      Request	 information	 or	 assistance	
requirements	 with	 other	 important	 oversight	 respon‐              from	any	federal,	state,	or	local	unit	
sibilities	around	the	world.	                                         of	government.	
                                                                  	
	                                                                    Administer	oaths	and	take	affidavits.	


                                     
                         

USAID	OIG	Iraq	Oversight	Report		                    	                                                              1 
    Financial Returns on OIG Work in Iraq,      OIG’s considered approach to oversight in Iraq
                FY 2003-2012                    has produced dividends for taxpayers. Whereas
                                                we have expended $24.8 million on oversight
                                                activities in Iraq since FY 2003, our audit and
                                                investigative work has yielded $115.7 million in
                  USAID OIG
                                                returns to the Government in the form of savings
            Savings and Recoveries              and recoveries. In raw financial terms, this
                     $4.67                      amounts to a $4.67 return on each dollar spent
                                                on USAID OIG oversight in Iraq. In addition to
                                                these direct savings and recoveries for the Gov-
                                                ernment, USAID OIG activities help prevent
              OIG Costs                         waste, fraud, and abuse, and contribute to future
                 $1                             economies and efficiencies through investigative
                                                and audit work.




Audit Program
USAID OIG is responsible for conducting and supervising audits involving USAID programs and
operations. OIG auditors, certified public accountants, and program analysts design and conduct
audits and reviews to determine whether agency programs and operations are working as
envisioned. Audit activities include performance audits of programs, financial statement audits,
audits related to financial accountability of grantees and contractors, and audits of information
technology systems.

Performance Audits and Reviews
OIG performance audits and reviews provide an independent assessment of the performance and
management of USAID systems, programs, activities, and functions against objective criteria, best
practices, and other information. Performance audits and reviews address a wide variety of
objectives, including those related to assessing program effectiveness and results; economy and
efficiency; internal controls; and adherence to legal and other requirements and standards.

When OIG auditors find areas for improvement, they make recommendations to the corresponding
organizational unit within USAID. When Agency officials agree with an OIG recommendation and
present a plan of action with milestones that would fully address a recommendation, OIG
determines that a “management decision” has been reached. When the Agency confirms that
corrective actions have been implemented, we consider USAID to have taken “final action” in
response to the recommendation.




2                                                                 USAID OIG Iraq Oversight Report
USAID managers have an opportunity to review and comment on OIG findings and
recommendations before they are published. USAID management comments on draft performance
audits and reviews are included in an appendix of the final report in their entirety.

OIG engages in an extensive planning process to determine where to focus performance audit and
review work. This planning process accounts for program risks and is intended to identify topics
of interest to OIG customers and stakeholders. OIG’s annual plan, which represents the
culmination of the yearly planning cycle, provides information on audits and reviews scheduled for
the ensuing fiscal year. OIG adjusts these plans throughout the year as circumstances warrant.

Financial Audits
USAID OIG uses different approaches to audit USAID funds expended by different types of
organizations.

USAID requires foreign nonprofit organizations that expend $300,000 per year or more in USAID
funds to undergo an annual financial audit. These audits focus specifically on USAID funds and
follow the rules and procedures contained in USAID’s Guidelines for Financial Audits Contracted by
Foreign Recipients. For routine audits, the recipient awards the audit contract using a standard
statement of work developed by OIG. The audits are performed by public accounting firms vetted
by OIG. OIG reviews final audit reports and transmits them to USAID for action. For a subset of
these audits, OIG also visits the audit firms, examines audit documentation, and interviews the
auditors responsible for the work. These audits are called recipient-contracted audits.

USAID may also award audit contracts directly. For agency-contracted audits, OIG is involved in
the audit from the outset, approving the audit program, attending entrance and exit briefings, and
approving draft and final audit reports. OIG is responsible for the quality of all recipient-
contracted and agency-contracted audits.

U.S.-based nonprofit organizations that expend $500,000 or more in federal awards annually are
required to be audited under the provisions of the Single Audit Act, Public Law 98-502 (October 19,
1984), as amended, and Office of Management and Budget (OMB) Circular A-133. These A-133
audits cover a sample of expenditures under federal awards.

For-profit entities are also subject to financial audit. USAID conducts annual risk assessments of
for-profit entities to decide when a for-profit entity should be audited. Financial audits of for-profit
organizations examine the direct and indirect costs incurred under the awards to determine the
allowable direct costs and recommend indirect cost rates. These audits are performed by the
Defense Contract Audit Agency (DCAA) or by public accounting firms.

Audits often identify questioned costs and sometimes recommend that funds be put to better use.
Auditors question as ineligible any costs that are not reasonable, allowable under the terms of the


USAID OIG Iraq Oversight Report                                                                       3
underlying contract or grant, or allocable to the program to which they were charged. They
question as unsupported any costs that lack evidence, such as bidding documents, invoices, or
receiving reports, that the auditors would need to examine to determine whether the costs are
reasonable, allowable, and allocable. USAID contracting or agreement officers make final
determinations on questioned costs and seek reimbursement for any sustained questioned costs.
Funds recommended to be put to better use are funds that could be used more efficiently if
managers take action to implement OIG recommendations. Unnecessary expenditures that can be
avoided in the future and costs that will not be incurred if operational changes are made in
response to OIG recommendations are examples of funds put to better use.


    Fraud Reporting                                Investigations
    USAID implementing partners have an            OIG conducts investigations into possible violations of
    affirmative obligation to report allega-       federal laws, rules, and regulations to preserve and
    tions of fraud related to USAID projects       protect the integrity of the programs and activities we
    under Federal Acquisition Regulations          oversee. OIG investigations of criminal, civil, and
    and USAID requirements.                        administrative violations cover all facets of USAID
                                                   programs and operations.
    USAID award recipients can use this form
    on USAID OIG’s web site to satisfy the
                                                   Most OIG investigations are conducted in response to
    requirement that they notify OIG
    whenever they have credible evidence           reported allegations of wrongdoing on the part of
    that a principal, employee, agent, or          Agency personnel or implementing partners. How-
    subcontractor of USAID has committed a         ever, OIG also conducts proactive investigations into
    violation of the Civil False Claims Act or a   programs and activities vulnerable to fraud.
    violation of Federal criminal law
    involving fraud, conflict of interest,         Complaints regarding USAID programs and activities
    bribery, or gratuity violations in             may be made through the OIG hotline or in person to
    connection with a federal award, or the        OIG personnel. OIG protects the confidentiality of
    performance, or closeout of a contract or
                                                   complainants’ identity pursuant to Section 7(b) of the
    any related subcontract.
                                                   Inspector General Act. This provision prohibits OIG
    Members of the public, USAID employees,        from disclosing the identity of an employee who re-
    and employees of USAID contractors and         ports an allegation without first obtaining the em-
    grantees are encouraged to use the OIG         ployee’s consent, unless OIG determines that
    hotline to report fraud, waste, or abuse in    disclosure is unavoidable during the course of the
    USAID programs or activities:                  investigation.

        Email: IG.Hotline@usaid.gov                Whistleblower protections are available to Federal
        Phone: 1-800-230-6539 or                   employees and applicants who report information that
        202-712-1023                               is reasonably believed to provide evidence of viola-
        Web form:                                  tions of law, rule, or regulation; gross mismanage-
        www.usaid.gov/oig/hotline/
                                                   ment; gross waste of funds; abuse of authority; or a
        hotline.htm
                                                   substantial and specific danger to public health or


4                                                                          USAID OIG Iraq Oversight Report
safety (unless disclosure of such information is specifically prohibited by law and such information
is specifically required by executive order to be kept secret in the interest of national defense or
the conduct of foreign affairs). Retaliation against an employee or applicant for making a protected
disclosure is prohibited by law. Managers are strictly prohibited from taking, failing to take, or
threatening to take or not take a personnel action on an employee or applicant because of the
employee’s or applicant’s disclosure of covered information

When our investigations confirm allegations of wrongdoing, OIG special agents collaborate with
U.S. and local law enforcement and prosecutors, other federal agencies and offices, and
implementing partners to put a stop to the prohibited activity. OIG special agents are sworn law
enforcement officers with the authority to carry firearms, execute search warrants, and make
arrests.

Outreach and Coordination
Outreach and coordination are important elements of the oversight process, and OIG extensively
engages in these activities. OIG investigators conduct fraud awareness briefings to alert
participants to fraudulent practices and schemes and to provide guidance on how to report fraud if
it is encountered. OIG auditors provide training to Agency personnel, host-government audit
authorities, and local audit firms on cost principles and federal audit and accountability
procedures and requirements.

USAID OIG works with other law enforcement agencies including the Federal Bureau of
Investigation’s International Corruption Unit, the National Procurement Fraud Task Force, the
Financial Crimes Enforcement Network, and U.S. embassies’ legal attaché offices to coordinate
investigative work, eliminate duplication, and maximize the efficient use of government resources.

When OIG identifies fraud, waste, or abuse in foreign assistance programs, we seek to neutralize
this activity by any legal means at our disposal. OIG routinely works with prosecutors from the U.S.
Department of Justice to put an end to civil and criminal violations and frequently works with
other U.S.-based and foreign prosecutorial authorities to bring perpetrators to justice.
Investigative findings on administrative matters are referred to Agency management for action.
OIG also works with USAID implementing partners to resolve investigative matters with a bearing
on their activities.

OIG auditors work closely with Agency managers to address our findings and identify appropriate
corrective actions in response to our recommendations. We also routinely collaborate and consult
with other oversight organizations. We work with DCAA in conducting audits, reviews, and
preaward surveys related to foreign assistance programs. USAID OIG employees regularly meet
with representatives from the OIGs of the Departments of State and Defense to coordinate plans,
reports, and activities of mutual interest. We also work with the Government Accountability Office
(GAO) in developing our audit plans to prevent duplication and ensure effective coordination.


USAID OIG Iraq Oversight Report                                                                   5
OIG is also a key participant in the Southwest Asia Joint Planning Group. The group, which is led by
the Department of Defense OIG, helps coordinate oversight of U.S. Government activities in
Southwest Asia. Other members of the group include representatives from the Office of Inspector
General for the Department of State, DCAA, the Government Accountability Office, the Special
Inspector General for Afghanistan Reconstruction, and the Special Inspector General for Iraq
Reconstruction. The group issues a coordinated oversight plan for the region on an annual basis
that includes planned and ongoing oversight activities by the member organizations.

OIG has taken a leadership role in working to harmonize audit standards among international
donors, working initially with eight bilateral donors. We work extensively with supreme audit
institutions and public accounting firms overseas, and endeavor to expand and deepen those
relationships wherever they would be mutually beneficial.




6                                                                    USAID OIG Iraq Oversight Report
A farmer in Taji, Iraq checks on crops grown using furrow and drip irrigation techniques taught by USAID’s Inma
Program. (Photo by USAID/Iraq, January 2008)


Iraq Oversight Program and Activities
USAID OIG provides oversight of USAID activities in Iraq through an intensive program of audits,
investigations, and outreach and coordination activities.

To execute this program as effectively as possible, OIG first deployed personnel to Iraq in 2003. In
the ensuing years, our presence in Iraq grew to nine U.S. direct-hire positions. As USAID programs
in Iraq have been scaled back in recent years, we have reduced the size of our on-the-ground
presence there to meet oversight needs elsewhere in the region. As of March 31, 2012, OIG’s
country office had 4 staff. In May, our country office in Iraq transitioned from an independent
country office to a suboffice reporting to our Regional Inspector General in Cairo, Egypt.

OIG had spent approximately $24.8 million to provide oversight for Iraq through the second
quarter of FY 2012. USAID OIG oversight activities in Iraq between FY 2003 and the second
quarter of FY 2012, in turn, had produced $115.7 million in returns for the U.S. Government.

The U.S. Government reopened the USAID mission in Baghdad in 2003. From FY 2003 through the
end of FY 2011, USAID provided more than $8 billion to infrastructure, and programs designed to
stabilize communities; foster economic and agricultural growth; and build the capacity of the
national, local and provincial governments to represent and respond to the needs of the Iraqi people.


USAID OIG Iraq Oversight Report                                                                              7
In recent years, OIG has covered a wide array of
USAID programs in Iraq, for relief and stabiliza-
tion, reconstruction, agriculture, economic growth,
democracy and governance, education, and health
care. Since the start of FY 2003, USAID OIG has
issued 213 financial audits, performance audits,
and reviews of Iraq-related assistance efforts.
These reports made 384 recommendations for
improvements to USAID programs and activities.

Performance Audits and Reviews

USAID OIG has issued 60 performance audits and
reviews relating to USAID programs and activities
in Iraq since FY 2003. Performance audits and
reviews conducted in recent years have noted Map of Iraq. (World Factbook. Central Intelligence
needed improvements in a range of management Agency, 2011)
and performance areas. Seven in ten reports have identified data quality or integrity issues. Six in
ten have found noncompliance with regulations or policies, and five in ten have noted problems
with contract or project management. Three in ten OIG performance audits and reviews in recent
years have highlighted risks to project sustainability.

OIG completed three performance audits and one survey in Iraq during the reporting period:

    Audit of USAID/Iraq’s Electoral Technical Assistance Program (Report No. E-267-12-003-
    P). To help strengthen the Iraqi electoral system, USAID/Iraq entered into a cooperative
    agreement, totaling $40 million, with the International Foundation for Electoral Systems (IFES)
    to implement the Electoral Technical Assistance Program. The program was intended to
    coordinate and work closely with the United Nations Assistance Mission in Iraq (UNAMI) to
    establish and strengthen the Iraqi electoral system. The agreement covered the period of
    September 2004 to September 2011. After the program started, USAID/Iraq increased funding
    to $103 million and signed a follow-on agreement with IFES, totaling $36 million, for the
    following 3 fiscal years.

    The program and UNAMI provided technical assistance to Iraq’s Independent High Electoral
    Commission (IHEC) to conduct elections in Iraq and to build a sustainable electoral institution
    that would require minimal international assistance. OIG determined that the program did
    provide assistance to conduct elections. For example, the program provided assistance in
    establishing the voter registration and polling center databases, as well as databases to




8                                                                    USAID OIG Iraq Oversight Report
   tabulate election results, register political parties, track complaints, and maintain candidate
   information.

   However, all parties acknowledged that although technical assistance provided during
   elections did build capacity to some extent, IHEC is not sustainable at this point and needs
   more assistance before it can stand on its own operationally, administratively, and financially.
   For instance, the program focused on the immediate election cycles instead of devoting
   sufficient attention to building IHEC’s institutional capacity and organizational sustainability.
   As a result, IHEC did not have a strategic plan to become sustainable.

   The organization still lacks a reliable voter registration system, permanent staff, up-to-date
   computer equipment, plans for training and outreach, financial transparency, and political
   independence—all prerequisites for sustainability. Training to develop skills necessary to
   build a professional electoral administration was neglected at the 18 governorate electoral
   offices, further hindering sustainability.

   In addition, IFES did not coordinate with UNAMI to identify the institutional gaps within IHEC,
   such as financing, procurement, and human resources. Further, the mission also does not know
   whether IFES and UNAMI duplicated efforts or gave conflicting advice, either of which would
   have prevented the efficient use of program funds.

   OIG made 11 recommendations. Management decisions were made on eight, and final action
   was taken on three.

   Audit of the Sustainability of USAID/Iraq-Funded Information Technology Systems
   (Report No. E-267-12-002-P). Between 2003 and 2011, USAID implemented programs
   across several sectors to assist the Government of Iraq. These programs were intended to
   stabilize communities, foster economic and agricultural growth, and build the capacity of the
   national, local, and provincial governments. Some of these programs included the financing and
   development of information technology (IT) systems.

   During this period, the mission funded at least 24 IT systems, totaling $73.2 million, through
   awards to various contactors and grantees. These USAID-financed IT systems were intended to
   be delivered to and used by Government of Iraq entities to allow them to operate more
   efficiently and effectively. In some cases, the awards included IT systems as specific
   deliverables; in other cases, the mission implemented programs using IT systems to achieve
   broader goals such as to increase transparency and accountability or reduce fraud and
   corruption.

   Of the 24 audited systems, OIG found that 10, which cost $62.1 million, were not completed,
   were not functional when delivered, or were not used by the Government of Iraq as intended.



USAID OIG Iraq Oversight Report                                                                   9
     Two other systems, costing $2.5 million, were partially used, and three systems, totaling $1.5
     million, were used as intended. For the remaining systems, the mission was neither able to
     provide documentation that the systems were used nor provide direct contact information for
     the end users so that OIG could follow up with them. Nevertheless, the director of the mission’s
     technical office said that the Government of Iraq likely was not using the systems.

     OIG determined that USAID IT system endeavors in 19 of the 24 programs did not use taxpayer
     money appropriately. For instance, one of the programs, GAPTIS, was intended to improve the
     transparency of accounting practices in the governorates. However, according to State
     Department officials from a Provincial Reconstruction Team, USAID and its implementer,
     Research Triangle Institute, assumed that the Government of Iraq wanted to improve
     transparency—which was not the case. This lack of user agreement, coupled with only limited,
     rudimentary training, led to disuse of the system in some governorates. In another program,
     the database system supplied contained a virus, and the backup version was “read only.” As a
     result, the system was not usable.

     Management decisions have been made on all seven recommendations in this report.

     Audit of USAID/Iraq’s Community Action Program Activities Implemented by
     International Relief and Development (Report No. E-267-12-001-P). USAID awarded a
     $39.1 million cooperative agreement in September 2008 to International Relief and
     Development, Inc. (IRD) for the implementation of the Iraq Community Action Program
     activities. As of September 2010, USAID/Iraq had increased the total estimated costs to $91
     million and extended the period of performance to September 2012.

     There were some notable improvements, such as the creation of community action groups and
     the completion of 51 projects. However, most completed projects did not target the identified,
     prioritized needs of the communities. In fact, of 146 completed projects surveyed, 50 (34
     percent) did not match any needs identified by the neighborhoods and 45 others (31 percent)
     did not match the first or second priorities. In November 2009, USAID/Iraq issued a notice of
     material noncompliance to IRD for vacant key personnel positions and IRD’s lack of
     programmatic progress.

     In 2009, USAID approved IRD’s request of a 57 percent reduction in projects in order to reduce
     the number of small, supply-type projects (such as providing student desks, office equipment,
     and toys to kindergartens). However, out of more than 500 projects IRD completed by 2011,
     more than 50 percent were supply-type and over 60 percent were funded for less than
     $25,000. OIG found that IRD had a financial interest in programming its projects to not exceed
     $25,000 as it could collect overhead only for the first $25,000 of an individual subaward, and
     supply-type projects most easily fit within this parameter. In contrast, other implementers on
     the project had between 7 and 25 percent of projects under $25,000.



10                                                                    USAID OIG Iraq Oversight Report
   Substandard desks provided by IRD to a primary school in Baghdad were discarded. (Photo by Combined
   Consultancy Company for Legal and Economic Investment Consultation, LLC of Karradah, Baghdad, under
   contract with OIG, April 2011)


   In addition, IRD reported that more than 2.4 million Iraqis had benefitted from the projects
   completed and material delivered. In one case, IRD stated that 72,000 people benefited from
   the supply of vaccination and office equipment valued at less than $800 dollars to a health
   center for allergic diseases. In another, 37,440 beneficiaries were reported from the supply of
   office equipment valued at $4,875 to a health center in Sadr City. OIG did not find it plausible
   that IRD’s activities, with projects worth an estimated $11.8 million, could have directly
   benefited half the city’s population. Furthermore, OIG determined that 31 percent of the value
   of all IRD completed projects was programmed to benefit just 2 of 36 neighborhoods, Baquba
   Center and Khan Dhari.

   OIG made ten recommendations to improve the Iraq Community Action Program, including
   requiring improvements for projects with safety hazards, poor-quality work, and potential
   overcharges. Management decisions have been made on four.

   Survey of USAID/Iraq’s Awards and Subawards (Report No. E-267-12-001-S). Each year,
   federal agencies award more than a trillion dollars in contracts and financial assistance. The



USAID OIG Iraq Oversight Report                                                                    11
      Federal Funding Accountability and Transparency Act of 2006 (Public Law 109–282,
      September 26, 2006) was enacted to increase the transparency of federal government
      expenditures by providing access to information on federal awards through a single,
      searchable, publicly available Web site.

      The act required the federal government to provide more user-friendly and detailed
      information about government spending. The act also required OMB to establish a public Web
      site that included data on federal awards and subawards.1 In accordance with the
      Transparency Act, USAID is compiling and reporting data on awards and subawards funded by
      USAID’s mission in Iraq and determining whether recipients of USAID awards have complied
      with applicable audit requirements for their subawardees.

      From March 2003 to June 2011, USAID/Iraq managed a portfolio of $6.72 billion that included
      24 expired awards with total estimated costs of $4.95 billion. As of June 30, 2011, there were
      15 active awards with total estimated costs of $1.77 billion.

      Implementers of five of the ten USAID–funded programs included in this survey awarded
      subgrants during fiscal year 2010. However, only two of the USAID programs, provincial
      economic growth and agribusiness—both implemented by Louis Berger Group—provided
      grants to Iraqi nonprofit organizations of amounts that necessitated audits. According to
      information provided by the implementer, the programs are in the process of implementing
      these audit requirements.

      OIG made no recommendations.

Two additional OIG performance audits were under way on March 31, 2012:

      Audit of the QED Group’s Monitoring and Evaluation of USAID Programs in Iraq.
      USAID/Iraq requested this audit to help determine what type of monitoring and evaluation
      mechanism it should have in place in the future. This audit will determine whether the
      mission’s use of the QED Group has improved program management and oversight of USAID
      programs in Iraq.

      Audit of the USAID/Iraq’s Legislative Strengthening Program. This audit will determine
      whether USAID/Iraq’s Legislative Strengthening Program has improved the sustainability of
      democratic governance in Iraq.

In addition to these performance audits, OIG has an additional performance audit and survey
planned for FY 2012. These planned engagements will address the Access to Justice Program and
security services employed by USAID contractors and grantees in Iraq.

1
    www.USAspending.gov


12                                                                   USAID OIG Iraq Oversight Report
Financial Audits
In addition to organization-wide audits of U.S.-based firms operating in Iraq, OIG has overseen 153
financial audits of Iraq-based programs and activities since FY 2003. These financial audits have
covered more than $5 billion in USAID funds and identified approximately $255 million in
questioned costs. Of this total, USAID had sustained more than $18 million in questioned costs by
the end of the reporting period.

OIG works with local accounting firms to conduct financial audits in Iraq. Before using any local
accounting firms for this type of work, OIG first conducts an assessment of their capabilities to
perform the work. As of March 31, 2012, had a roster of eligible audit firms to perform financial
audits of USAID funds in Iraq.

In addition to required audits of local recipients and U.S.-based NGOs and for-profit entities
operating in Iraq, USAID funds audits of all locally incurred costs to enhance the accountability of
its programs.

From October 1, 2011, to March 31, 2012, OIG issued nine financial audits in Iraq:

   Financial Audit of USAID Resources Managed and Expenditures Locally Incurred by
   Cardno Emerging Market Group, Under USAID/Iraq Task Order No. 267-GHS-I-03-07-
   00016, for the Period September 30, 2009, to October 31, 2010 (Report No.
   E-267-12-001-N). This audit covered $298,642 of local costs incurred by Cardno Emerging
   Market Group (CEMG) while providing capacity building activities to the staff of the Iraqi
   Ministry of Health. The auditors expressed a qualified opinion on the cost representation
   statement and identified $1,600 relating to the payment of customs fees that was not
   supported. The auditors noted other deficiencies in the contractor’s internal control structure
   and compliance matters and observed that CEMG procured technical assistance valued $14,420
   on a sole-source basis without documentation. The auditors also identified one instance of
   material non-compliance related to lack of documentation and updating of goods and
   commodities financed by USAID/Iraq.

   Financial Audit of USAID Resources Managed and Expenditures Locally Incurred by CHF
   International, Under USAID Cooperative Agreement No. 267-A-00-08-00503-00,
   Community Action Program, for the Period October 1, 2008, to September 30, 2010
   (Report No. E-267-12-002-N). The audit covered $19,448,375 of local direct costs incurred
   and billed under the Community Action Program. The auditors expressed an unqualified
   opinion on the cost representation statement, but identified one reportable condition in the
   recipient’s control structure and its operations which was communicated to CHF International
   in a management letter in June 2011.




USAID OIG Iraq Oversight Report                                                                  13
     Financial Audit of Edinburgh Risk and Security Management Ltd.’s Report on Audit of
     Costs Incurred and Billed From July 1, 2007, to September 30, 2007, Under Subaward
     With the International Foundation for Election Systems Through the Consortium for
     Elections and Political Process Strengthening Under USAID Cooperative Agreement No.
     267-A-00-04-00405-00 (Report No. E-267-12-001-D). The audit covered $1.5 million in
     USAID costs incurred and questioned sub-recipient operating and direct costs in the amount of
     $160,848.

     Financial Audit of Development Alternatives Inc. Report on Costs Incurred and Billed
     Under USAID Contract No. 267-C-00-07-00505-00, for the Period September 28, 2007,
     Through September 30, 2008 (Report No. E-267-12-002-D). This audit examined
     approximately $32.1 million in costs. Auditors questioned a total of $948 of the billed costs due
     to lack of supporting documentation and excess of allowable per diem charges.

     Financial Audit of International Foundation for Election Systems (IFES) Direct Costs
     Incurred and Costs Billed From July 1, 2007, to June 30, 2009, Under Subawards With
     Through the Consortium for Elections and Political Process Strengthening Under Its
     USAID Cooperative Agreement (Report No. E-267-12-003-D). This audit covered
     $24,319,005 in USAID funds and did not identify any questioned costs.

     Financial Audit of USAID Resources Managed and Expenditures Locally Incurred by
     Mercy Corps Under the Community Action Program III, USAID/Iraq Cooperative
     Agreement No. 267-A-00-08-00505-00, for the Period From October 1, 2008, to
     September 30, 2010 (Report No. E-267-12-003-N). The audit covered $24,472,058 of
     locally incurred costs in support of a program to facilitate the creation and training of
     community action groups responsible for identifying and prioritizing community needs,
     mobilizing community and other resources, and monitoring project implementation. Auditors
     did not question any costs and did not report any internal control or compliance deficiencies.

     Closeout Financial Audit of USAID Resources Managed and Expenditures Locally
     Incurred by Air Serv International Under Grant Agreement Number DFD-G-00-04-
     00192-00, for Aviation Support, for the Period From February 28, 2009, to January 30,
     2010 (Report No. E-267-12-004-N). The audit covered more than $2.4 million in local direct
     costs incurred in Iraq and billed under the Aviation Support Program. Auditors questioned
     $1,920,884 and concluded that the Financial Statement did not present program revenues,
     costs incurred and reimbursed, and commodities and technical assistance directly procured by
     USAID fairly, in all material respects, for the period owing to the questioned costs identified.

     Independent Financial Audit of International Resources Group, Ltd.’s Report on Contract
     Costs Incurred and Billed Under USAID Contract No. 517-C-00-04-00106-00, for the
     Period of October 1, 2006, Through December 31, 2007 (Report No. E-267-12-004-D).
     This audit examined $7,433,799 in direct and indirect costs charged to USAID for


14                                                                    USAID OIG Iraq Oversight Report
   environmental, natural resource, and energy planning and program services in Iraq. The audit
   questioned $879,072 in direct costs.

   Financial Audit of Cooperative Housing Foundation International Direct Costs Incurred
   and Billed for the Period of October 1, 2007, Through December 31, 2008, Under
   Cooperative Agreement No. 267-A-00-06-00507-00, Community Action Program II
   (Report No. E-267-12-005-D). This audit covered more than $98.3 million in direct costs
   charged under the Community Action Program II, and questioned $2,943,880 in direct costs as
   unsupported or ineligible. In addition, auditors found no documentation to support
   approximately $12.4 million in cost sharing reported by Cooperative Housing Foundation
   International.

Twenty-three additional financial audits are currently underway:

   Financial Audit of Cost Incurred by Bechtel National Inc. to Provide Technical Support
   Under USAID/Iraq Award No. 267-CO-EEE-C-00-03-00018, for the Period January 1,
   2005, to December 31, 2005

   Financial Audit of Costs Incurred by Management Systems International to Implement
   the Tatweer Program Under USAID/Iraq Award No. DFD-I-01-05-00221, for the Period
   October 1, 2007, to September 30, 2008

   Financial Audit of Costs Incurred by Bechtel National Inc. Under USAID/Iraq Award No.
   SPU-C-00-04-00001, Infrastructure II, for the Period January 1, 2005, to December 31,
   2005

   Financial Audit of Costs Incurred by Louis Berger Group Inc. to Implement the Private
   Sector Development II Program Under USAID/Iraq Award No. 267-C-00-04-00435, for
   the Period October 1, 2007, to March 31, 2008

   Financial Audit of Costs Incurred by Louis Berger Group Inc. to Implement the Inma
   Agribusiness Program Under USAID/Iraq Award No. 267-C-00-07-00500, for the Period
   May 14, 2008, to May 13, 2009

   Financial Audit of Costs Incurred by Louis Berger Group Inc. to Implement the Tijara
   Project Under USAID/Iraq Award No. 267-C-00-08-00500, for the Period January 23,
   2008, to January 31, 2009

   Financial Audit of Costs Incurred by the International Foundation for Election Systems to
   Provide Elections Support Under Agreement No. 267-A-00-04-00405-00, for the Period
   July 1, 2009, Through February 29, 2012


USAID OIG Iraq Oversight Report                                                             15
     Financial Audit of Costs Incurred by AECOM Under USAID/Iraq Contract No. 263-I-021-
     06-0015, ILSP, for the Period October 1, 2010, Through March 31, 2012

     Financial Audit of Costs Incurred by Management Systems International Under
     USAID/Iraq Contract No. DFD-I-01-05-00221, for the Period January 1, 2008, Through
     July 31, 2011

     Financial Audit of Costs Incurred by Relief International Under USAID/Iraq Award No.
     267-A-00-07-00504, ICCM, for the Period September 27, 2007, to September 30, 2008

     Financial Audit of Costs Incurred by the QED Group Under USAID/Iraq Contract No. 267-
     M-00-09-00513, Perform, for the Period September 30, 2009, Through September 30,
     2011

     Financial Audit of Costs Incurred by the QED Group Under USAID/Iraq Manpower
     Purchase Order No. 267-O-00-08-00507, for the Period September 13, 2008, Through
     September 13, 2011

     Financial Audit of Local Costs Incurred by Development Alternatives Inc. Under
     USAID/Iraq Award No. 267-C-00-07-00505, for the Period October 1, 2009, to September
     30, 2010

     Financial Audit of Local Costs Incurred by CHF International to Implement Community
     Action Program III Under USAID/Iraq Award No. 267-A-00-07-00503, for the Period
     October 1, 2010, Through September 30, 2011

     Financial Audit of Local Costs Incurred by Mercy Corps to Implement Community Action
     Program III Under USAID/Iraq Award No. 267-A-00-07-00505, for the Period October 1,
     2010, Through September 30, 2011

     Financial Audit of Local Costs Incurred by Agricultural Cooperative Development
     International/ Volunteers in Overseas Cooperative Assistance to Implement Community
     Action Program III Under USAID/Iraq Award No. 267-A-00-08-00504, the Period
     October 1, 2010, Through September 30, 2011

     Financial Audit of Local Costs Incurred by IRD to Implement Community Action Program
     III Under USAID/Iraq Award No. 267-A-00-08-00506, for the Period October 1, 2010,
     Through September 30, 2011




16                                                            USAID OIG Iraq Oversight Report
   Financial Audit of Local Costs Incurred by IRD to Implement Community Action Program
   III Under USAID/Iraq Award No. 267-A-00-08-00506, for the Period October 1, 2008, to
   September 30, 2010

   Financial Audit of Local Costs Incurred by AECOM Under USAID/Iraq Award No. 267-C-
   00-10-00005, Financial Development Project, for the Period July 18, 2010, Through
   March 30, 2011

   Financial Audit of Local Costs Incurred by ARD/DPK to Implement the Access to Justice
   Program Under USAID/Iraq Award No. 267-C-00-10-00006, for the Period October 1,
   2010, to September 30, 2011

   Financial Audit of Local Costs Incurred by University Research Company, LLC. to
   Implement the Primary Health Care Program Under USAID/Iraq Award No. AID-267-C-
   11-00004, for the Period May 4, 2011, Through March 31, 2012

   Financial Audit of Local Costs Incurred by Management Systems International to
   Implement the Administrative Reform Project Under USAID/Iraq Award No. AID-267-C-
   11-00005, for the Period June 5, 2011, Through March 31, 2012

Three financial audits of USAID funds in Iraq were in the planning stage at the end of the reporting
period.

Investigations
As of March 31, 2012, USAID OIG had 25 ongoing investigations pertaining to Iraq. During the
reporting period, OIG investigators opened eight cases
in Iraq and closed six others. Since FY 2003, OIG has  Investigative Outcomes
initiated 105 investigations related to Iraq. These    Since FY 2003, OIG investigations in Iraq
investigations have been associated with a range of    have resulted in:
different allegations. In most cases, underlying alle-     45 referrals for civil or criminal
gations have pertained to false claims (37 percent),       prosecution
program fraud (25 percent), false statements (23 per-
                                                           12 arrests
cent), or bribery and kickbacks (21 percent).
                                                                13 indictments
During the October 1, 2011, and March 31, 2012, re-
                                                                10 convictions and pleadings
porting period, OIG investigations yielded a high-profile
indictment and the sentencing of five individuals               27 administrative actions (e.g., con-
following criminal convictions.                                 tract and employee terminations)

                                                                $86 million in savings and recoveries




USAID OIG Iraq Oversight Report                                                                     17
     Former Louis Berger Group Inc. Chief Executive Officer Arrested. On October 20, 2011, the
     former president and Chief Executive Officer (CEO) of New Jersey-based international
     engineering consulting company Louis Berger Group (LBG) was arrested. The defendant
     allegedly conspired to defraud USAID by leading a scheme to intentionally overbill the U.S.
     Government in connection with hundreds of millions of dollars in reconstruction contracts in
     Iraq and Afghanistan over a nearly 20-year period. The indictment charges the former
     president and CEO of LBG with one count of conspiring to defraud USAID and five counts of
     making false claims in connection with those billings. The conspiracy charge carries a
     maximum potential penalty of 10 years in prison; each of the false claims counts carries a
     maximum potential penalty of 5 years in prison. Each of the six counts also carries a maximum
     $250,000 fine, or twice the loss from the offense, whichever is greater. USAID has suspended
     the former CEO of the firm from eligibility for future federal awards.

     Five Individuals, Including a Former Member of Congress, Sentenced in U.S. District
     Court for Violations of the International Economic Powers Act and Other Felonies. A
     former Member of Congress from Michigan and U.S. Ambassador to the United Nations, was
     sentenced in federal court in January 2012 for obstruction of justice and for acting as an
     unregistered foreign agent for an Islamic charity with ties to international terrorism. Several
     officials and employees of the now-defunct Islamic American Relief Agency (IARA) charity,
     formerly headquartered in Columbia, MO, also were sentenced in federal court.

     IARA was closed in October 2004, after being identified by the U.S. Treasury Department as a
     specially designated global terrorist organization with ties to Osama bin Laden, al-Qaida, and
     the Taliban. IARA secretly funneled more than $1 million to Iraq in violation of U.S. economic
     sanctions. IARA then hired the former congressman to lobby the U.S. Government on its behalf.

     In exchange for the payments, the Member of Congress acted as an agent for IARA by
     contacting persons at the U.S. Senate Finance Committee, USAID, the Department of Justice, and
     the Department of the Army, in an effort to have IARA removed from USAID’s list of debarred
     entities, and to remove IARA from the Senate Finance Committee’s list of charities suspected of
     funding terrorism.

     The five defendants in this case received sentences ranging from 6 months’ probation to nearly
     5 years’ imprisonment.

Outreach and Coordination
OIG investigators conduct fraud awareness briefings to alert participants—employees, contractors,
grantees, and subrecipients—to fraudulent practices and schemes and to provide guidance on how
to report fraud. OIG has provided 49 fraud awareness briefings in Iraq to 1,090 participants since
FY 2003. During the reporting period, special agents in Iraq delivered four fraud awareness
briefings attended by 157 participants, including representatives of USAID implementing partners.


18                                                                   USAID OIG Iraq Oversight Report
OIG conducts many of its investigations in association with other law enforcement agencies, often
in association with the International Contract Corruption Task Force, a joint law enforcement
agency task force that seeks to detect, investigate, and dismantle corruption and contract fraud
resulting from U.S. contingency operations. When cases involving Iraqi nationals are declined for
prosecution by the U.S. Department of Justice, the matters are presented to local public
prosecutors.

OIG has a close working relationship with USAID/Iraq and investigators regularly brief contracting
personnel on fraud detection and prevention. OIG has also established working relationships with
implementing partners and regularly provides fraud awareness briefings for their staff. OIG also
supports implementing partners in their efforts to identify and address allegations of fraud by
quickly referring cases to USAID’s Office of Acquisitions and Assistance (OAA) and local
prosecutors when appropriate. OIG continues to collaborate with OAA by referring entities for
possible suspension or debarment and meeting to review referrals on a regular basis. As this
process becomes more robust, it will become increasingly difficult for individuals to prey on
multiple USAID projects. Since FY 2011, OAA has taken suspension or debarment actions against
10 individuals and firms based on OIG referrals relating to investigations in Iraq.

USAID OIG coordinates audit plans and ongoing activities with other oversight bodies through
weekly meetings with the Ambassador and representatives of the OIGs for USAID and the
Departments of State and Defense, the Special Inspector General for Iraq Reconstruction, and GAO.

To increase awareness of—and compliance with—cost principles and to promote the highest
standards, OIG conducts training for overseas USAID staff, contractors, grantees, and others. This
training provides a general overview of U.S. Government cost principles and actual examples of
instances that demonstrate concepts such as reasonableness, allocability, allowability, and various
specific cost principles (e.g., travel expenses or entertainment costs). The training also includes
financial audit requirements and accountability issues. During this reporting period, OIG provided
training in cost principles and related subjects in Iraq. Participants included USAID/Iraq’s newly
hired field monitors, personnel from the Government of Iraq’s Supreme Audit Institution, USAID
staff and partners, and auditors from local public accounting firms.




USAID OIG Iraq Oversight Report                                                                 19
Appendix 1 – Recommendations Pending Management
Decisions
USAID OIG establishes the basis for audit findings and recommendations to persuade Agency
officials that recommended corrective actions are warranted. Agency officials communicate their
agreement or disagreement with OIG recommendations upon review of draft OIG reports. When
Agency officials agree with an OIG recommendation and present a plan of action with milestones
that would fully address the recommendation, OIG determines that a management decision has
been reached.

The following OIG recommendations were pending management decisions as of March 31, 2012.
USAID management decisions were pending on 12 recommendations related to Agency programs
in Iraq. The following table lists these recommendations by the organizational unit within USAID
to which the recommendation was directed and in chronological order by the date the
corresponding audit report was issued.


  Date                      Report*                                        Recommendation

     USAID/Iraq

11/17/11    Independent Financial Audit of Edinburgh     1.   Determine the allowability of $84,375 in questioned
            Risk and Security Management Ltd.'s               ineligible Monthly Operating Costs—Personnel and
            Report on Audit of Costs Incurred and             collect any disallowed amounts from Edinburgh Risk
            Billed From July 1, 2007, to September 30,        and Security Management.
            2007, Under Subaward With the
                                                         2.   Determine the allowability of $64,473 in questioned
            International Foundation for Election
                                                              ineligible Monthly Operating Costs—Other and collect
            Systems Through the Consortium for
                                                              any disallowed amounts from Edinburgh Risk and
            Elections and Political Process
                                                              Security Management.
            Strengthening Under USAID Cooperative
            Agreement No. 267-A-00-04-00405-00           3.   Determine the allowability of $12,000 in questioned
            (E-267-12-001-D)                                  ineligible Other Direct Costs and collect any
                                                              disallowed amounts from Edinburgh Risk and Security
                                                              Management.
                                                         4.   Address with Edinburgh Risk and Security Management
                                                              the internal control deficiencies related to the
                                                              accounting system mentioned in the audit report.




20                                                                            USAID OIG Iraq Oversight Report
  Date                      Report*                                          Recommendation

01/04/12    Independent Financial Audit of                1.   Determine the allowability and collect, as appropriate,
            International Resources Group Ltd. Report          $879,072 in questioned costs, including any indirect
            on Contract Costs Incurred and Billed              costs, billed by International Resources Group Ltd.
                                                               under contract no. 517-C-00-04-00106-00 for the
            Under USAID Contract No. 517-C-00-04-
                                                               period October 1, 2006, through December 31, 2007.
            00106-00, for the Period of October 1,
            2006, Through December 31, 2007 (E-267-
            12-004-D)
03/01/12    Independent Financial Audit of Cooperative    1.   Determine the allowability and collect, as appropriate,
            Housing Foundation International Direct            $315,813 in questioned costs, including any indirect
            Costs Incurred and Billed for the Period of        costs associated with direct costs billed, by
                                                               Cooperative Housing Foundation International, under
            October 1, 2007, Through December 31,
                                                               cooperative agreement number 267-A-00-06-00507 -
            2008, Under Cooperative Agreement No.              00, for the period October 1, 2007, through
            267-A-00-06-00507-00 Community Action              December 31, 2008.
            Program (E-267-12-005-D)
                                                          2.   Determine the allowability and collect, as appropriate,
                                                               $12,825 in questioned ineligible costs, including any
                                                               indirect costs associated with direct costs billed, by
                                                               Agricultural Cooperative Development International /
                                                               Volunteers Overseas Cooperative Assistance, under
                                                               cooperative agreement number 267-A-0-06-00507-00,
                                                               for the period October 1, 2007, through
                                                               December 31, 2008.
                                                          3. Determine the allowability and collect, as appropriate,
                                                             $2,615,242 in questioned costs, including any indirect
                                                             costs associated with direct costs billed, by
                                                             International Relief and Development and their
                                                             security subcontractor Sabre international Security,
                                                             under cooperative agreement number 267-A-00-06-
                                                             00507-00, for the period October 1, 2007, through
                                                             December 31, 2008.

                                                          4. Request supporting documentation to verify the
                                                             $12,387,460 of cost share reported by Cooperative
                                                             Housing Foundation International under cooperative
                                                             agreement number 267-A-OO-06-00507-00, for the
                                                             period October 1, 2007, through December 31, 2008.
03/22/12    Audit of USAID/Iraq’s Electoral Technical     3.   Require IFES to work with IHEC to help it perform
            Assistance Program (E-267-12-003-P)                onsite needs assessments at each of the 19
                                                               Governorate Electoral Offices so that the assessment
                                                               results can be incorporated into strategic and
                                                               operational plans.




USAID OIG Iraq Oversight Report                                                                                    21
    Date                        Report*                                         Recommendation

                                                             5.   Require IFES to (1) coordinate with UNAMI and IHEC
                                                                  to identify institutional gaps in writing, (2) determine
                                                                  and document which gaps each organization will work
                                                                  on, and (3) continually coordinate with the United
                                                                  Nations Assistance Mission in Iraq to avoid any
                                                                  duplication of efforts.
                                                             11. Require IFES to provide the data requested during the
                                                                 audit and compare current proposed and budgeted
                                                                 costs with recent actual costs to determine the
                                                                 reasonableness of the proposed costs as well as the
                                                                 effectiveness and efficiency of program funds.


*    Hyperlinks are provided to the OIG performance audits and reviews referenced in this table and the tables in the
     following two appendices. Hyperlinks are not provided to financial audits in these tables, however, because these
     reports may include proprietary information or information otherwise privileged and subject to withholding from
     public release.




22                                                                                 USAID OIG Iraq Oversight Report
Appendix 2 – Recommendations Pending
Final Action for 6 Months
After we have agreed to the course of action USAID managers have proposed to address an OIG
recommendation, we track the implementation of the actions. When the Agency confirms these
corrective actions, we consider that USAID has taken final action on the recommendation and that
it is closed. In some cases, we conduct follow-up audits and reviews to verify that corrective
actions were taken and that they have had the intended effect of improving Agency programs and
operations.

Final action had been pending for 6 months or longer on the following recommendations as of
March 31, 2012. In particular, final action had been pending for 6 months or more on four
recommendations related to USAID programs in Iraq. Target action dates that passed without final
action are indicated in red font below.


Date                 Report                                     Recommendation                             Target
                                                                                                         Action Date

    USAID/Iraq

11/14/08   Financial Audit of Costs Incurred and   1.   Determine the allowability and collect as           12/29/11
           Billed by International Relief and           appropriate the $106,377 in questioned
           Development Inc. Under                       ineligible direct costs billed by IRD under
           Cooperative Agreement No. AFP-A-             Cooperative Agreement No. AFP-A-00-03-
           00-03-00002-00, From November 1,             00002-00.
           2005, Through March 31, 2007
           (E-267-09-003-D )

06/23/10   Financial Audit of Direct Costs         3.   Determine the allowability and collect as           03/31/12
           Incurred by Air Serv International           appropriate the $116,660 in questioned
           Under USAID Grant Number DFD-                unsupported costs over billed by Air Serv
           G-00-04-00192-00, From June 29,              International under Grant No. DFD-G-00-04-
           2004, Through December 31, 2008              00192-00.
           (E-267-10-003-D)

05/16/11   Audit of USAID/Iraq’s Agribusiness      3.   Require its contracting officer’s technical         04/30/12
           Program (E-267-11-002-P)                     representatives to provide activity managers
                                                        with copies of the applicable sections of
                                                        contracts and agreements, such as the scope of
                                                        work, and required deliverables to improve
                                                        their ability to measure progress against
                                                        expected results.




USAID OIG Iraq Oversight Report                                                                                  23
Date   Report                Recommendation                              Target
                                                                       Action Date

                9.   Make a complete inventory of grants awarded          04/30/12
                     by the contractor from program inception,
                     review grant files to ensure that documentation
                     is adequate to support required procurement
                     and monitoring requirements, and question and
                     collect amounts for those grants not adequately
                     supported.




24                                           USAID OIG Iraq Oversight Report
Appendix 3 – Audited Amounts, Questioned Costs, and
Funds Recommended to Be Put to Better Use
Financial audits examine designated funds over a given period of time. The dollar value of the
funds audited, regardless of whether they are defined in terms of costs, expenditures, or revenues,
is the “amount audited.”2 As you can see in the following table, OIG has presided over financial
audits of more than $5 billion in USAID funds since FY 2003.

Financial audits, as well as performance audits and reviews, sometimes identify questioned costs
and recommend funds to be put to better use. Questioned costs are costs determined not to be
allowable, allocable, or reasonable, or costs for which auditors cannot make a determination
because required documentation is not available for their review. USAID contracting or agreement
officers make final determinations on identified questioned costs and seek reimbursement for any
“sustained” questioned costs. Funds recommended to be put to better use are funds that could be
used more efficiently if managers take action to implement OIG recommendations. When Agency
managers agree to implement OIG recommendations to put funds to better use, the Agency is
regarded as having “concurred” that the funds could be put to better use.

The following table provides information on dollars audited during the course of financial audits.
It also lists all financial audits, performance audits, and reviews that identified questioned costs or
funds recommended to be put to better use since FY 2003. This information is presented alongside
Agency determinations regarding these funds (i.e., determinations to sustain questioned costs or
concur with that funds could be put to better use. The corresponding audit reports are presented
in chronological order, with those most recently issued appearing first.

     Date                                       Report Title and Number

                   Amount              Questioned          Amount          Funds to Be Put        Amount
                  Audited ($)            Costs            Sustained         to Better Use        Concurred

               Independent Financial Audit of Cooperative Housing Foundation International Direct Costs
               Incurred and Billed for the Period October 1, 2007, Through December 31, 2008, Under
    03/01/12
               Cooperative Agreement No. 267-A-00-06-00507-00, Community Action Program II
               (E-267-12-005-D)

                      98,300,126         15,331,340                   –                  –                –

               Independent Financial Audit of International Resources Group Ltd. Report on Contract Costs
    01/04/12   Incurred and Billed Under USAID Contract No. 517-C-00-04-00106-00, for the Period October 1,
               2006, Through December 31, 2007 (E-267-12-004-D)

                       7,433,799            879,072                   –                  –                –


2Because performance audits, evaluations, and reviews do not apply the same procedures as financial audits, we
do not compute an “amount audited” for that work.


USAID OIG Iraq Oversight Report                                                                               25
      Date                                        Report Title and Number

                    Amount              Questioned            Amount          Funds to Be Put        Amount
                   Audited ($)            Costs              Sustained         to Better Use        Concurred

                Financial Audit of USAID Resources Managed and Expenditures Locally Incurred by Mercy Corps
     12/05/11   Under Community Action Program III, USAID/Iraq Cooperative Agreement No. 267-A-00-08-
                00505-00, for the Period October 1, 2008, to September 30, 2010 (E-267-12-003-N)

                       24,472,058                   –                  –                   –                   –

                Independent Financial Audit of International Foundation for Election Systems (IFES) Direct Costs
                Incurred and Costs Billed From July 1, 2007, to June 30, 2009, Under Subawards With IFES
     11/29/11
                Through the Consortium for Elections and Political Process Strengthening Under Its USAID
                Cooperative Agreement (E-267-12-003-D)

                       24,319,005                   –                  –                   –                   –

                Independent Financial Audit of Development Alternatives Inc. Report on Costs Incurred and Billed
     11/20/11   Under USAID Contract No. 267-C-00-07-00505-00, for the Period September 28, 2007, Through
                September 30, 2008 (E-267-12-002-D)

                       28,509,646                 948                 948                  –                   –

                Independent Financial Audit of Edinburgh Risk and Security Management Limited’s Report on Audit
                of Costs Incurred and Billed From July 1, 2007, to September 30, 2007, Under Subaward With the
     11/17/11   International Foundation for Election Systems Through the Consortium for Elections and Political
                Process Strengthening Under USAID Cooperative Agreement No. 267-A-00-04-00405-00
                (E-267-12-001-D)

                        1,541,134             160,848                 –                    –                   –

                Audit of USAID/Iraq's Community Action Program Activities Implemented by International Relief
     11/15/11
                and Development (E-267-12-001-P)

                             N/A               25,560                  –                   –                   –

                Financial Audit of USAID Resources Managed and Expenditures Locally Incurred by CHF
     10/16/11   International, Under USAID Cooperative Agreement No. 267-A-00-08-00503-00, Community
                Action Program, for the Period October 1, 2008, to September 30, 2010 (E-267-12-002-N)

                       19,448,375                   –                  –                   –                   –

                Financial Audit of USAID Resources Managed and Expenditures Locally Incurred by Cardno
                Emerging Market Group Under the Health Promotion Program in Iraq, USAID/Iraq Task Order
     10/06/11
                No. 267-GHS-I-03-07-00016, for the Period September 30, 2009, to October 31, 2010
                (E-267-12-001-N)

                          298,642              16,020              11,600                  –                   –

                Independent Financial Audit of International Resources Group Ltd. Report on Costs Incurred and
     09/12/11   Billed Under USAID Contract No. 517-C-00-04-00106-00 for the Period January 1, 2008, Through
                February 28, 2009 (E-267-11-004-D)

                        5,853,973                   –                 –                    –                   –



26                                                                            USAID OIG Iraq Oversight Report
  Date                                         Report Title and Number

                 Amount              Questioned            Amount          Funds to Be Put        Amount
                Audited ($)            Costs              Sustained         to Better Use        Concurred

             Independent Financial Audit of International Business and Technical Consultants Inc. Report on
 06/29/11    Costs Incurred and Billed Under USAID Contract No. 267-C-00-05-00508-00, for the Period
             January 1, 2008, Through December 31, 2008 (E-267-11-003-D)

                     4,753,419              67,685                1,196                 –                     –

 05/16/11    Audit of USAID/Iraq's Agribusiness Program (E-267-11-002-P)

                           N/A          23,049,940              11,200                      –                     –

             Financial Audit of USAID Resources Managed and Expenditures Locally Incurred by AECOM
             International Development Under the Iraq Legislative Strengthening Program, USAID/Iraq Task
 05/16/11
             Order No. 263-I-03-06-00015-00, for the Period October 1, 2008, to September 30, 2010
             (E-267-11-002-N)

                     2,387,975                    –                   –                     –                     –

             Closeout Financial Audit of the Fund Accountability Statement of USAID Resources Managed by
             International Relief and Development Inc. Under Cooperative Agreement No. 267-A-00-06-00503-
 03/16/11
             00, Community Stabilization Program, for the Period October 1, 2008, to October 31, 2009
             (E-267-11-001-N)

                   133,509,611          18,613,798             483,782                      –                     –

             Financial Audit of Costs Incurred and Billed by Research Triangle Institute Under USAID Contract
 12/10/10    No. 267-C-00-05-00505-00, for the Period January 1, 2008, Through December 31, 2008
             (E-267-11-002-D)

                    99,735,645             109,017              43,880                      –                     –

             Audit of USAID/Iraq's Payroll Payments to Foreign Service Nationals, Third Country Nationals, and
 11/22/10
             U.S. Personal Service Contractors (E-267-11-001-P)

                           N/A                 670                 670                      –                     –

             Financial Audit of Costs Incurred and Billed by International Relief and Development Inc. Under
 11/07/10    USAID Cooperative Agreement No. 267-A-00-06-00503-00, for the Period October 1, 2007,
             Through September 30, 2008 (E-267-11-001-D)

                   341,760,396          40,043,349           2,575,095                      –                     –

             Financial Audit of Direct Costs Incurred by Air Serv International Under USAID Grant No. DFD-
 06/23/10
             G-00-04-00192-00 (E-267-10-003-D)

                    22,753,106             181,954             181,954                      –                     –

 03/31/10    Audit of USAID's Internally Displaced Persons Activities in Iraq (E-267-10-001-P)

                           N/A             766,490              45,260                      –                     –




USAID OIG Iraq Oversight Report                                                                                       27
      Date                                       Report Title and Number

                    Amount              Questioned           Amount          Funds to Be Put         Amount
                   Audited ($)            Costs             Sustained         to Better Use         Concurred

                Financial Audit of Billed Amounts by Gulf Catering Company Under USAID Contract No. 267-C-
     11/09/09
                00-05-00514-00, From October 1, 2005, Through October 31, 2008 (E-267-10-002-D)

                        3,074,309             314,907              12,353                   –                   –

                Financial Audit of Direct Costs Incurred and Costs Billed by the International Foundation for
                Electoral Systems Under USAID Cooperative Agreement Nos. 267-A-00-04-00405-00, From
     10/29/09   October 1, 2005, Through June 30, 2007; AFP-A-00-04-00014-00, From July 9, 2004, Through
                June 30, 2006; and REE-A-00-04-00050-00, From July 26, 2004, Through July 31, 2006
                (E-267-10-001-D)

                       32,534,090           1,118,016              95,379                   –                   –

                Financial Audit of Costs and Payments Made to Business Systems House by Research Triangle
     08/03/09
                Institute for the Period March 23, 2003, to September 30, 2007 (E-267-09-017-D)

                       15,529,384          15,529,882           6,216,018                   –                   –

                Financial Audit on Costs Verified for BearingPoint Inc. Under USAID Contract No. 267-C-00-04-
     07/20/09
                00405-00, for the Period October 1, 2007, Through May 15, 2009 (E-267-09-016-D)

                       69,707,089          73,362,868               6,632                   –                   –

                Financial Audit of Direct Costs Incurred by Research Triangle Institute Under Contract No. 267-
     06/25/09
                C-00-05-00505-00, From January 1, 2007, Through December 31, 2007 (E-267-09-013-D)

                       73,546,102             847,709              87,037                   –                   –

                Financial Audit of Costs Incurred and Billed by International Business and Technical Consultants
     06/25/09   Inc. Under USAID Contract No. 267-C-00-05-00508-00, for the Period January 1, 2007, Through
                December 31, 2007 (E-267-09-014-D)

                        3,894,132                   –                   –                   –                   –

                Financial Audit of Costs Recorded by Sabre International Security Under USAID Cooperative
                Agreement No. 267-A-00-06-00507-00, for the Period of September 30, 2006, Through
     06/02/09
                September 30, 2007; and USAID Agreement No. 267-A-00-06-00503-00, for the Period May 29,
                2006, Through September 30, 2007 (E-267-09-012-D)

                       17,809,903          14,077,122            296,560                    –                   –

                Financial Audit of Direct Costs Incurred and Billed by CHF International Under USAID Agreement
                No. AFP-A-00-03-00004-00 (ICAP I), for August 1, 2005, Through April 30, 2007, and USAID
     05/28/09
                Agreement No. 267-A-00-06-00507-00 (ICAP II), for September 30, 2006, Through September 30,
                2007 (E-267-09-011-D)

                       64,233,050           1,648,253              35,724                   –                   –




28                                                                           USAID OIG Iraq Oversight Report
  Date                                        Report Title and Number

                 Amount              Questioned           Amount           Funds to Be Put       Amount
                Audited ($)            Costs             Sustained          to Better Use       Concurred

             Financial Audit of Costs Incurred and Billed by Louis Berger Group Inc. Under Contract No. 267-
 03/08/09
             C-00-07-00500-00, for the Period May 14, 2007, to May 13, 2008 (E-267-09-008-D)

                    18,718,246             40,965              17,599                      –                  –

             Financial Audit of Costs Incurred and Billed by Save the Children Federation Inc. Under
 01/28/09    Cooperative Agreement No. AFP-A-00-03-00005-00, for the Period August 1, 2004, to April 1,
             2006 (E-267-09-007-D)

                    25,677,841              50,057             37,225                      –                  –

             Financial Audit of the Costs Incurred and Billed by Development Alternatives Inc. Under USAID
 01/27/09    Contract No. RAN-C-00-04-00002-00, for the Period July 1, 2006, Through December 31, 2006
             (E-267-09-006-D)

                     4,166,871            198,734                    –                     –                  –

             Financial Audit of Costs Incurred and Billed by International Relief and Development Inc. Under
 11/14/08    USAID Cooperative Agreement No. AFP-A-OO-03-00002-00, for the Period November 1, 2005,
             Through March 31, 2007 (E-267-09-003-D)

                    32,049,797            110,033             106,377                      –                  –

             Financial Audit of Costs Incurred and Billed by International Relief and Development Inc. Under
 11/14/08    USAID Cooperative Agreement No. 267-A-00-06-00503-00, for the Period May 29, 2006, Through
             September 30, 2007 (E-267-09-001-D)

                   138,717,704            211,858              26,042                  –                  –

             Financial Audit of Costs Incurred and Billed by Management Systems International Under USAID
 11/14/08    Contract No. DFD-I-01-05-00221-00, for the Period July 27, 2006, Through September 30, 2007
             (E-267-09-004-D)

                    36,723,963            362,759              10,739                  –                  –

             Financial Audit of Costs Incurred and Billed by the Services Group Inc. Under Contract No. 267-
 11/14/08    C-00-04-00435-00, for the Period October 1, 2006, Through September 30, 2007
             (E-267-09-005-D)

                     4,687,302               3,547              3,547                  –                  –

 09/30/08    Audit of USAID/Iraq's Agribusiness Program (E-267-08-006-P)

                          N/A                   –                   –           6,000,000          6,000,000

             Financial Audit of Costs Incurred and Billed by International Relief and Development Inc. Under
 08/12/08    USAID Cooperative Agreement No. AFP-A-OO-03-00002-00 for the Period November 1, 2005,
             Through March 31, 2007 (E-267-08-014-D)

                    29,687,291              45,080             45,080                  –                  –




USAID OIG Iraq Oversight Report                                                                                   29
      Date                                        Report Title and Number

                    Amount               Questioned            Amount          Funds to Be Put         Amount
                   Audited ($)             Costs              Sustained         to Better Use         Concurred

                Financial Audit of the Subcontract Costs Submitted by Sallyport Global Services Ltd. for Security
                Services and Life Support Services Under USAID Prime Contract No. 267-C-00-04-00435-00 With
     07/06/08
                Louis Berger Group Inc. for the Period October 1, 2006, Through September 30, 2007
                (E-267-08-013-D)

                         9,127,387                360                  360                  –                   –

     06/24/08   Audit of USAID/Iraq's Management of Its Official Vehicle Fleet (E-267-08-003-P)

                             N/A                      –                –             1,480,648            1,480,648

                Financial Audit of Costs Incurred by Louis Berger Group Inc. Under Contract No. 2670C-00-04-
     05/27/08
                00435-00, From October 1, 2006, Through September 30, 2007 (E-267-08-012-D)

                       14,868,026                     –                –                    –                   –

                Financial Audit of Costs Incurred by Mercy Corps Under USAID Cooperative Agreement No.
     05/20/08
                AFP-A-00-03-00001-00, From August 1, 2007, Through March 31, 2007 (E-267-08-011-D)

                       44,249,994           4,749,842                  –                    –                   –

                Financial Audit of Costs Incurred and Billed by Agricultural Cooperative Development
     05/13/08   International / Volunteers Overseas Cooperative Assistance, Under Cooperative Agreement No.
                AFP-A-00-03-00003-00, From August 1, 2004, to March 21, 2007 (E-267-08-010-D)

                       38,562,534               39,236                 –                    –                   –

                Financial Audit of Costs Incurred and Billed by BearingPoint Inc. Under Contract No. 267-C-00-
     04/15/08
                04-00405-00, for the Period October 1, 2006, Through September 30, 2007 (E-267-08-009-D)

                       42,472,368               36,181              16,003                  –                   –

     03/18/08   Audit of USAID/Iraq's Community Stabilization Program (E-267-08-001-P)

                              N/A               39,821               5,140            8,541,076           3,634,272

                Financial Audit of Costs Incurred and Billed by International Business and Technical Consultants
     03/06/08   Inc. Under Contract No. 267-C-00-05-00508-00, From January 1, 2006, Through December 31,
                2006 (E-267-08-008-D)

                        4,033,466                1,188               1,188                  –                   –

                Financial Audit of Costs Incurred and Billed by IntraHealth International Inc. Under its Subcontract
     02/24/08   No. 15-330-0208954 With Research Triangle Institute Under Contract No. GHS-1-04-03-00028-
                00, for the Period April 26, 2005, Through December 31, 2006 (E-267-08-007-D)

                        1,204,745                 –                    –                    –                   –




30                                                                             USAID OIG Iraq Oversight Report
  Date                                         Report Title and Number

                 Amount               Questioned           Amount           Funds to Be Put         Amount
                Audited ($)             Costs             Sustained          to Better Use         Concurred

             Financial Audit of Costs Incurred and Billed by Bechtel National Inc. Under Contract Nos. EEE-C-
 02/12/08    00-03-00018-00 (Phase I) and SPU-C-00-04-00001-00 (Phase II), From November 1, 2006, to
             September 30, 2007 (E-267-08-006-D)

                    44,632,750               71,968                71,968                –                    –

             Financial Audit of Costs Incurred and Billed by Creative Associates International Inc. Under
 02/04/08    Contract No. EPP-C-00-04-00004-00, From July 1, 2005, Through February 28, 2007
             (E-267-08-004-D)

                    31,209,197             166,518              166,518                  –                    –

             Financial Audit of Costs Incurred and Billed by Management Systems International Under USAID
 02/04/08    Contract No. AEP I-00-00-00024-00, Task No. 08, From June 26, 2003, Through May 31, 2005
             (E-267-08-005-D)

                     5,214,033               95,247                60,034                –                    –

             Financial Audit of Costs Incurred and Billed by America’s Development Foundation Under
 01/23/08    Contract No. GEW-C-00-04-00001-00, From October 1, 2006, Through June 30, 2007
             (E-267-08-003-D)

                    14,145,617               32,000            –                         –                    –

             Financial Audit of Costs Incurred and Billed by Sallyport Global Services Ltd. Under its
             Subcontracts With the Louis Berger Group Inc. Under USAID Contract Nos. 267-C-00-04-00417-
 12/12/07
             00 for the Period September 27, 2004, Through September 30, 2005, and 267-C-00-04-00435-00
             for the Period August 1, 2005, Through March 31, 2007 (E-267-08-002-D)

                    32,371,474                 –                      –                  –                    –

             Financial Audit of Direct Costs Incurred and Billed by Research Triangle Institute Under Contract
 10/04/07
             No. GHS-I-04-03-00028-00, From April 26, 2005, to December 31, 2006 (E-267-08-001-D)

                    14,510,148               38,082                34,887                –                    –

             Financial Audit of Costs Incurred and Billed by Research Triangle Institute Under Contract No.
 09/20/07
             267-C-00-05-00505-00, From January 1, 2006, to December 31, 2006 (E-267-07-024-D)

                    42,332,303             139,719                 88,495                –                    –

             Financial Audit of Costs Incurred and Billed by the National Democratic Institute for International
 09/12/07    Affairs Under Cooperative Agreement No. AFP-A-00-04-00014-00, From July 9, 2004, to June 30,
             2006 (E-267-07-022-D)

                    20,728,350                 –                      –                  –                    –




USAID OIG Iraq Oversight Report                                                                                    31
     Date                                     Report Title and Number

                Amount               Questioned           Amount           Funds to Be Put         Amount
               Audited ($)             Costs             Sustained          to Better Use         Concurred

            Financial Audit of Costs Incurred and Billed by the International Republican Institute Under
 09/12/07   Cooperative Agreement No. REE-A-00-04-00050-00, From July 26, 2004, Through July 31, 2006
            (E-267-07-023-D)

                   12,267,907                 –                    –                    –                   –

            Financial Audit of Costs Incurred and Billed by Louis Berger Group Inc. Under Contract No. 267-
 09/10/07   C-00-04-00417-00, for the Period September 27, 2004, Through September 30, 2005
            (E-267-07-021-D)

                   12,129,022             157,791              156,898                  –                   –

            Financial Audit of Costs Incurred and Billed by Louis Berger Group Inc. Under Contract No. 267-
 08/16/07
            C-00-04-00435-00, for the Period August 1, 2004, Through September 30, 2006 (E-267-07-020-D)

                   49,309,032           2,916,731              373,108                  –                   –

            Financial Audit of Costs Incurred and Billed by the Volunteers for Economic Growth Alliance
 08/12/07   Under USAID Associate Cooperative Agreement No. EGA-A-00-04-00002-00, for the Period
            July 7, 2004, Through January 6, 2006 (E-267-07-019-D)

                   12,089,702             113,347               58,311                  –                   –

            Financial Audit of Costs Incurred and Billed by Development Alternatives Inc. Under USAID
 08/02/07   Contract No. RAN-C-00-04-00002-00, for the Period July 1, 2005, Through November 30, 2006
            (E-267-07-018-D)

                   76,483,598               41,588              41,588                  –                   –

            Financial Audit of Costs Incurred and Billed by the International Republican Institute Under
 06/19/07   Cooperative Agreement No. AFP-A-00-04-00014-00, for the Period November 1, 2005, Through
            June 30, 2006 (E-267-07-017-D)

                    9,072,896                 –                    –                    –                   –

            Financial Audit of Costs Incurred and Billed by Abt Associates Inc. Under USAID Contract No.
 06/14/07
            RAN-C-00-03-00010-00, for September 25, 2004, Through November 30, 2004 (E-267-07-016-D)

                      590,592                 –                    –                    –                   –

            Financial Audit of Costs Billed by Kroll Government Services Inc. Under Subcontract No. AID
 06/12/07
            2004-T-00405-000-0058, From May 2006 to September 2006 (E-267-07-015-D)

                   23,075,833                 –                    –                    –                   –

            Financial Audit of Costs Incurred and Billed by the National Democratic Institute of International
 06/10/07   Affairs, Under Cooperative Agreement No. REE-A-00-04-00050-00, From November 1, 2005, to
            July 31, 2006 (E-267-07-014-D)

                   16,669,320                 –                    –                    –                   –




32                                                                             USAID OIG Iraq Oversight Report
 Date                                        Report Title and Number

               Amount               Questioned           Amount          Funds to Be Put         Amount
              Audited ($)             Costs             Sustained         to Better Use         Concurred

           Financial Audit of Public Vouchers Submitted by International Resources Group Ltd. From
05/10/07
           November 1, 2004, to September 30, 2006 (E-267-07-013-D)

                  22,513,909              45,310                  –                   –                    –

           Financial Audit of Direct Costs Incurred and Billed by America's Development Foundation Under
04/24/07   USAID Contract No. GEW-C-00-04-00001-00, From July 1, 2005, to September 30, 2006
           (E-267-07-012-D)

                  26,812,920                 –                    –                   –                    –

           Financial Audit of Costs Incurred and Billed Under USAID Contract No. 267-C-00-04-00405-00
04/03/07   With Bearing Point Inc. for the Period August 1, 2005, Through September 30, 2006
           (E-267-07-011-D)

                  57,203,434              49,630              49,630                  –                    –

           Financial Audit of Costs Incurred and Billed by the International Foundation for Election Systems
03/27/07   Under Cooperative Agreement No. 267-A-00-04-00405-00, From September 1, 2004, Through
           September 30, 2005 (E-267-07-010-D)

                  22,364,979           3,258,823           1,835,795                  –                    –

           Financial Audit of Costs Incurred and Billed by Bechtel National Inc. Under Contract No. EEE-C-
           00-03-00018-00, for the Period October 1, 2005, Through February 28, 2006, and Contract No.
03/15/07
           SPU-C-00-04-00001-00, for the Period October 1, 2005, Through October 31, 2006 (E-267-07-
           009-D)

                 483,989,062             104,623             104,623                  –                    –

           Financial Audit of Costs Incurred and Billed by the Research Foundation of the State University of
           New York Under its Cooperative Subagreement No. 04-04465-IRA.0-408 With National
01/03/07
           Democratic Institute Under USAID Cooperative Agreement No. REE-A-00-04-00050-00, for the
           Period July 26, 2004, Through December 31, 2005 (E-267-07-008-D)

                   3,219,705                 –                    –                   –                    –

           Financial Audit of Costs Incurred and Billed by Research Triangle Institute Under Contract No.
12/18/06   267-C-00-05-00505-00, for the Period May 9, 2005, Through December 31, 2005 (E-267-07-007-
           D)

                  15,701,776              68,475              14,190                  –                    –

           Financial Audit of Costs Incurred and Billed by International Relief and Development Inc. Under
11/06/06   Cooperative Agreement No. AFP-A-00-03-00002-00, From August 1, 2004, Through October 31,
           2005 (E-267-07-005-D)

                  17,915,466              71,128              54,002                  –                    –




  USAID OIG Iraq Oversight Report                                                                               33
     Date                                     Report Title and Number

                Amount               Questioned           Amount           Funds to Be Put         Amount
               Audited ($)             Costs             Sustained          to Better Use         Concurred

            Financial Audit of Costs Incurred and Billed by the National Democratic Institute of International
 11/06/06   Affairs, Under Cooperative Agreement No. REE-A-00-04-00050-00, From July 26, 2004, to
            October 31, 2005 (E-267-07-006-D)

                   18,195,499                 –                    –                    –                    –

            Financial Audit of Billed Costs by SkyLink Air and Logistics Support Inc. Under USAID Contract
 10/25/06   No. DFD-C-00-03-00026-00, for the Period October 1, 2004, Through January 31, 2005, and
            Determination on the Allowability of Previously Questioned Serco Inc. Costs (E-267-07-004-D)

                    2,774,068               55,255              55,255                  –                    –

            Financial Audit of Direct Costs Incurred and Billed by the International Republican Institute
            Through the Consortium for Elections and Political Process Strengthening Under USAID
 10/01/06
            Agreement No. AFP-A-00-04-00014-00, for the Period July 9, 2004, Through October 1, 2005
            (E-267-07-001-D)

                   23,894,925                 –                    –                    –                    –

            Financial Audit of Direct Costs Incurred by Bechtel National Inc. Under Iraq Infrastructure
 09/18/06   Reconstruction Phase I and II Contracts No. EEE-C-00-03-00018-00 and No. SPU-C-00-04-00001-
            00, for the Period October 1, 2004, Through September 30, 2005 (E-267-06-017-D)

                  684,263,856             321,854              207,229                  –                    –

            Financial Audit of Costs Incurred by Crown Agents Consultancy Inc. Under Subcontract No. 1100-
            003 With International Resources Group Inc. Under Contract No. EMT-C-00-03-00007-00 and
 08/14/06
            Contract No. 517-C-00-04-00106-00, for the Period November 1, 2004, Through December 31,
            2004 (E-267-06-016-D)

                    2,120,465               48,359                 –                    –                    –

            Financial Audit of Costs Incurred by International Business and Technical Consultants Inc. Under
 07/27/06   Contract No. 267-C-0500508-00, for the Period May 31, 2005, Through December 31, 2005
            (E-267-06-015-D)

                    3,372,384                7,235               7,235                  –                    –

            Financial Audit of Costs Incurred by BearingPoint Inc. Under Contract No. 267-C-00-04-00405,
 07/06/06
            From September 4, 2004, to July 31, 2005 (E-267-06-014-D)

                   37,367,611            1,695,484           1,017,536                  –                    –

            Financial Audit of Costs Incurred by Creative Associates International Inc. Under Contract No.
 07/03/06
            EPP-C-00-04-00004-00, From July 1, 2004, Through June 30, 2005 (E-267-06-013-D)

                   17,479,711                1,314               1,314                  –                    –




34                                                                             USAID OIG Iraq Oversight Report
  Date                                        Report Title and Number

                 Amount              Questioned           Amount         Funds to Be Put         Amount
                Audited ($)            Costs             Sustained        to Better Use         Concurred

             Financial Audit of Invoices Submitted on Kroll Government Services Inc. Under Subcontract No.
 07/02/06
             AID-2004-T-00043-000-0021, From February 2004 to September 2004 (E-267-06-012-D)

                     1,351,643                –                   –                   –                   –

             Financial Audit of Costs Incurred and Billed by Research Triangle Institute Under USAID Contract
 06/23/06    No. EDG-C-00-03-00010-00 for the Period October 1, 2004, Through July 31, 2005
             (E-267-06-011-D)

                    37,697,918           8,141,150            189,203                 –                   –

             Financial Audit of Costs Billed by Research Triangle Institute Under Contract No. EDG-C-00-03-
 06/15/06
             00010-00, for the Period March 26, 2004, Through September 30, 2004 (E-267-06-010-D)

                     8,751,175           8,715,875            406,700                 –                   –

             Financial Audit of Costs Incurred by Cooperative Housing Federation International Under
 06/06/06    Cooperative Agreement No. AFP-A-00-03-00004-00, From August 1, 2004, to July 31, 2005
             (E-267-06-009-D)

                    16,015,713             59,418              28,499                 –                   –

             Financial Audit of Costs Incurred by International Relief and Development Inc. Under USAID
 05/18/06    Cooperative Agreement No. AFP-A-00-03-00002, From May 16, 2003, Through July 31, 2004
             (E-267-06-008-D)

                    11,627,091           1,018,326             15,319                 –                   –

             Financial Audit of Costs Incurred by Development Alternatives Inc. Under Contract No. RAN-C-
 04/23/06
             00-04-00002-00, From October 15, 2004, Through June 30, 2005 (E-267-06-007-D)

                    18,505,566               7,403              6,829                 –                   –

             Financial Audit of System for Request for Equitable Adjustment Procedures by Bechtel National
 02/28/06    Inc. Under USAID Contract No. EEE-C-00-03-00018-00 and SPU-C-00-04-00001-00 (E-267-06-
             002-D)

                    25,262,605                –                   –                   –                   –

             Financial Audit of Costs Incurred by Louis Berger Group Inc. Under Contract No. 267-C-00-04-
 02/22/06
             0435-00, From October 1, 2004, to July 31, 2005 (E-267-06-006-D)

                    15,273,075               5,094              5,094                 –                   –

             Financial Audit of Costs Incurred and Billed by America’s Development Foundation Under USAID
 02/12/06    Contract No. GEW-C-00-04-00001, for the Period August 16, 2004, to June 30, 2005
             (E-267-06-005-D)

                    12,479,675            100,145                 –                   –                   –




USAID OIG Iraq Oversight Report                                                                                 35
     Date                                     Report Title and Number

                Amount               Questioned           Amount          Funds to Be Put         Amount
               Audited ($)             Costs             Sustained         to Better Use         Concurred

            Financial Audit of Costs Incurred by CHF International Under USAID Cooperative Agreement No.
 02/01/06
            AFP-A-00-03-00004, From May 16, 2003, Through July 31, 2004 (E-267-06-004-D)

                   14,681,152             284,569               46,362                  –                  –

            Audit of Material and Services Procured by Bechtel National Inc. Under Contract No. EEE-C-00-
 09/23/05
            03-00018-00 and SPU-C-00-04-00001-00, Between January and February 2005 (E-267-05-019-D)

                  189,100,000                 –                    –                    –                  –

            Financial Audit of Costs Incurred by Save the Children Federation Inc. Under USAID Cooperative
 09/22/05
            Agreement No. AFP-A-00-03-00005, From May 16, 2003, Through July 31, 2004 (E-267-05-018-D)

                   12,093,435                 –                    –                    –                  –

            Financial Audit of Costs Incurred by Siemens Westinghouse Under Subcontract No. 24910-30N-
 09/22/05   ESL- MG00-001 and Subcontract No. 24910-30B-ESD-MGSO-013, From Inception Until
            September 30, 2004 (E-267-05-020-D)

                    7,823,102                 –                    –                    –                  –

            Financial Audit of Costs Incurred and Billed by Abt Associates Inc. From April 1, 2004, Through
 06/27/05
            September 24, 2004, Under Contract No. RAN-C-00-03-00010-00 (E-267-05-016-D)

                    7,212,265              12,749              12,749                   –                  –

            Financial Audit of SkyLink Air and Logistic Support Inc. Costs for the Period March 1, 2004,
 06/27/05   Through September 30, 2004, Under USAID Contract No. DFD-C-00-03-00026-00
            (E-267-05-017-D)

                   10,358,264             301,218             277,484                   –                  –

            Financial Audit of Costs Incurred and Billed by the International Resources Group From April 1,
 06/16/05   2004, Through May 4, 2004, Under Contract No. EMT-C-00-03-00007, and From May 4, 2004,
            Through October 31, 2004, Under Contract No. 517-C-00-04-00106-00 (E-267-05-014-D)

                   21,061,361                 –                    –                    –                  –

            Financial Audit of Costs Incurred by Bechtel National Inc. From March 1, 2004, to September 30,
 06/16/05   2004, Under Contract No. EEE-C-00-03-00018-00, and From January 5, 2004, to September 30,
            2004, Under Contract No. SPU-C-00-04-00001-00 (E-267-05-015-D)

                  349,513,595             118,417             118,417                   –                  –

            Financial Audit of Costs Incurred and Billed to USAID by BearingPoint Inc. Under USAID Contract
 06/14/05
            No. RAN-C-00-03-00043-00, From April 1, 2004, Through September 30, 2004 (E-267-05-013-D)

                   38,447,166          13,331,840                  –                    –                  –




36                                                                             USAID OIG Iraq Oversight Report
  Date                                         Report Title and Number

                  Amount              Questioned           Amount          Funds to Be Put         Amount
                 Audited ($)            Costs             Sustained         to Better Use         Concurred

              Financial Audit of Costs Billed by Creative Associates International Inc. Under Contract No. EDG-
 05/17/05
              C-00-03-00011-00, From March 1, 2004, Through August 31, 2004 (E-267-05-012-D)

                      7,940,613              36,921             36,921                  –                    –

              Financial Audit of Costs Billed by Research Triangle Institute Under Contract No. EDG-C-00-03-
 05/15/05
              00010-00, for the Period March 26, 2004, Through September 30, 2004 (E-267-05-011-D)

                     57,989,243            417,522             415,432                  –                    –

              Financial Audit of Costs Incurred by Agricultural Cooperative Development International /
 04/21/05     Volunteers Overseas Cooperative Assistance Under USAID Cooperative Agreement No. AFP-A-
              00-03-00003-00, From May 16, 2003, Through July 31, 2004 (E-267-05-009-D)

                     11,034,825               8,609                 –                   –                    –

              Financial Audit of Costs Incurred by Mercy Corps Under USAID Cooperative Agreement No.
 03/22/05
              AFP-A-00-03-00001-00, From May 16, 2003, Through July 31, 2004 (E-267-05-008-D)

                     12,346,972                –                    –                   –                    –

              Financial Audit of Costs Incurred and Billed to USAID by BearingPoint Inc. Under Contract No.
 03/17/05
              RAN-C-00-03-00043-00 from December 1, 2003, to March 31, 2004 (E-266-04-043-D)

                     27,540,524           5,117,424                 –                   –                    –

              Financial Audit of Costs Billed on Development Alternatives Inc. Prime Contract Nos. HDA-I-00-
 03/01/05     03-00061-00, From January 1, 2004, Through April 5, 2004, and DOT-I-00-03-00004-00, From
              February 5, 2004, to August 31, 2004 (E-267-05-007-D)

                     57,800,375               9,475               9,475                 –                    –

              Financial Audit of Costs Billed Under Parsons Infrastructure and Technology Group Subcontract
 02/27/05     No. 24964-000-ESU-W000-001, From January 12, 2004, Through September 24, 2004
              (E-267-05-006-D)

                      7,388,916            139,867             139,867                  –                    –

              Financial Audit of Incurred Costs Submitted on Voucher Nos. 8 Through 12 for Contract No.
 02/19/05
              TRN-C-00-03-00054-00 With Stevedoring Services of America (E-267-05-005-D)

                      4,900,697            312,041              97,079                  –                    –

              Financial Audit of Costs Incurred Under Subcontracts 24910-TSC-003 and 24910-GSC-005
   02/10/05   (Bechtel National Inc. Is Prime and Armor Group Services Limited is the Subcontractor), From
              May 1, 2003, Through September 30, 2004 (E-267-05-004-D)

                     31,083,699              13,015                 –                   –                    –




USAID OIG Iraq Oversight Report                                                                                   37
     Date                                         Report Title and Number

                    Amount               Questioned           Amount           Funds to Be Put         Amount
                   Audited ($)             Costs             Sustained          to Better Use         Concurred

                Financial Audit of Costs Incurred and Billed to USAID by International Resources Group Under
     10/21/04
                Contract No. EMT-C-00-03-00007, From September 1, 2003, to March 31, 2004 (E-267-05-001-D)

                       28,138,806                 –                      –                  –                        –

                Financial Audit of Incurred Direct Costs Under Iraq Infrastructure Reconstruction by Bechtel
     09/04/04   National Inc. Under Contract EEE-C-00-03-00018-00, From September 1, 2003, Through
                February 29, 2004 (E-266-04-044-D)

                      239,157,315           1,793,351              390,145                  –                        –

                Financial Audit of Costs Incurred and Billed by Research Triangle Institute Under USAID Contract
     08/09/04
                No. EDG-C-00-03-00010-00, From December 1, 2003, Through March 25, 2004 (E-266-04-042-D)

                      100,963,881             511,582              368,203                  –                        –

                Financial Audit Report on Review of Billed Costs by SkyLink Air and Logistic Support From
     07/19/04   November 1, 2003, to February 29, 2004, Under Contract DFD-C-00-03-00026-00
                (E-266-04-040-D)

                         8,556,787             49,372                 49,372                –                    –

                Financial Audit Report on Review of Costs Incurred and Billed by SSA Marine on Voucher Nos. 3
     06/30/04
                Through 7 Under Contract No. TRN-C-00-03-00054-00 (E-266-04-039-D)

                        6,807,643            1,131,456                33,519                –                    –

                Report on Audit of Costs Incurred by Abt Associates Inc. From October 25, 2003, Through
     06/20/04
                March 26, 2004, Under USAID Contract No. RAN-C-00-03-00010-00 (E-266-04-038-D)

                       13,414,124             120,150                  7,726                –                    –

                Financial Audit of Costs Incurred and Billed by Creative Associates International Inc.’s Under
     05/27/04   USAID Contract No. EDG-C-00-03-00011-00, for the Period November 1, 2003, Through
                February 28, 2004 (E-266-04-036-D)

                       17,457,385               45,314                45,314                –                        –

                Financial Audit of Costs Incurred and Billed by Development Alternatives Inc. Under USAID Prime
     04/12/04   Contract No. HDA-I-00-03-00061-00, and Subcontract No. 3825-100-03S-001, for the Period
                January 6, 2003, to December 31, 2003 (E-266-04-034-D)

                       27,377,961               96,275            –                         –                        –

                Financial Audit of Costs Incurred and Billed by BearingPoint Inc. Under USAID Contract RAN-C-
     03/24/04
                00-03-00043-00, From July 18, 2003, Through November 30, 2003 (E-266-04-033-D)

                        7,892,736               65,224                48,603                –                        –




38                                                                                 USAID OIG Iraq Oversight Report
  Date                                            Report Title and Number

                  Amount              Questioned           Amount           Funds to Be Put        Amount
                 Audited ($)            Costs             Sustained          to Better Use        Concurred

              Financial Audit of Costs Incurred and Billed by Management Systems International Under USAID
   03/10/04   Contract AEP I-00-00-00024-00, From June 25, 2003, Through January 30, 2004
              (E-266-04-031-D)

                      1,938,500            –                   –                        –                    –

              Financial Audit of Costs Incurred and Billed by the International Resources Group Under USAID
   03/10/04   Contract No. EMT-C-00-03-00007, From February 5, 2003, Through August 31, 2003
              (E-266-04-032-D)

                      9,842,782             134,084                  821                –                    –

              Report on the Evaluation of Research Triangle Institute’s Compliance With Established
   03/07/04   Timekeeping System Policies and Procedures for Recording Labor Charges Under USAID Contract
              No. EDG-C-00-03-00010-00 (E-266-04-030-D)

                            N/A                25,353              25,353               –                    –

              Report on Evaluation of Abt Associates Inc.’s Usage and Controls of Materials and Equipment
   03/01/04
              Procured Under USAID Contract No. RAN-C-00-03-00010-00 (E-266-04-029-D)

                        477,944                10,282          –                        –                    –

              Financial Audit of Costs Incurred and Billed by Creative Associates International Inc. Under USAID
   02/28/04   Contract No. EDG-C-00-03-00011-00, From April 11, 2003, Through October 31, 2003
              (E-266-04-028-D)

                     30,403,887                11,606              11,606               –                    –

              Financial Audit of Costs Incurred and Billed by Research Triangle Institute Under USAID Contract
   02/26/04   No. EDG-C-00-03-00010-00, From March 26, 2003, Through November 30, 2003
              (E-266-04-026-D)

                  32,660,570             28,000             28,000                      –                    –

              Report on the Audit of Research Triangle Institute’s Usage and Controls of Materials and Services
   02/26/04
              Procured Under USAID Contract No. EDG-C-00-03-00010-00 (E-266-04-027-D)

                     12,669,538          12,669,538            –                        –                    –

              Financial Audit of Costs Incurred and Billed by Abt Associates Inc. Under USAID Contract No.
   02/15/04
              RAN-C-00-03-00010-00, From July 18, 2003, Through October 24, 2003 (E-266-04-022-D)

                      3,702,739             161,008                 9,199               –                    –

              Financial Audit Report on International Resources Group’s Usage and Controls of Materials and
   02/14/04
              Services Procured Under USAID Contract No. EMT-C-00-03-00007 (E-266-04-020-D)

                      2,457,150                41,332              26,144               –                    –




USAID OIG Iraq Oversight Report                                                                                    39
     Date                                           Report Title and Number

                    Amount              Questioned            Amount           Funds to Be Put        Amount
                   Audited ($)            Costs              Sustained          to Better Use        Concurred

                Financial Audit of Costs Incurred by Bechtel National Inc. Under USAID’s Iraq Infrastructure
     02/12/04   Reconstruction Contract EEE-C-00-03-00018-00, From April 17, 2003, (Inception of the Contract)
                to August 31, 2003 (E-266-04-016-D)

                       48,710,691             –                   –                        –                   –

                Financial Audit Report on Review of Costs Incurred and Billed by SSA Marine Under USAID
     02/12/04
                Contract TRN-C-00-03-00054-00, as of August 12, 2003 (E-266-04-019-D)

                        1,559,153                 44,334              11,275               –                   –

                Financial Audit Report on SkyLink Air & Logistical Support Inc.’s Usage and Controls of Materials
     02/09/04
                and Services Procured Under USAID Contract No. DFD-C-00-03-00026-00 (E-266-04-013-D)

                          369,226             –                   –                        –                   –

                Financial Audit of Costs Incurred and Billed by SkyLink Air and Logistic Support Inc. Under USAID
     01/14/04   Contract DFD-C-00-03-00026-00, From March 21, 2003, Through October 31, 2003
                (E-266-04-011-D)

                        3,397,664                 81,834              74,151               –                   –

Iraq Total

                 5,012,036,184         278,858,370           18,283,786          16,021,724          11,114,920




40                                                                                 USAID OIG Iraq Oversight Report
Appendix 4 – Completed Audit Reports
The following table provides a listing of OIG audits by the fiscal year in which they were issued.
For purposes of this report, the term “financial audit” refers to financial audits, DCAA audits and
evaluations, and OIG quality assurance reviews. As it is used in this report, the term “performance
audit and review”, in turn, refers to other audits, reviews, risk assessments, and survey reports.


  Date          Number                                                 Title

    FY 2012
03/22/12      E-267-12-003-P   Audit of USAID/Iraq's Electoral Technical Assistance Program
03/21/12      E-267-12-002-P   Audit of the Sustainability of USAID/Iraq-Funded Information Technology Systems
03/01/12      E-267-12-005-D   Independent Financial Audit of Cooperative Housing Foundation International Direct
                               Costs Incurred and Billed for the Period October 1, 2007, Through December 31,
                               2008, Under Cooperative Agreement No. 267-A-00-06-00507-00, Community
                               Action Program II
01/04/12      E-267-12-004-D   Independent Financial Audit of International Resources Group, Ltd., Report on
                               Contract Costs Incurred and Billed Under USAID Contract No. 517-C-00-04-00106-
                               00, for the Period October 1, 2006, Through December 31, 2007
12/30/11      E-267-12-001-S   Survey of USAID/Iraq’s Awards and Subawards
12/14/11      E-267-12-004-N   Closeout Financial Audit of USAID Resources Managed and Expenditures Locally
                               Incurred by Air Serv International Under Grant Agreement No. DFD-G-00-04-
                               00192-00 for Aviation Support, for the Period February 28, 2009, to January 30, 2010

12/05/11      E-267-12-003-N   Financial Audit of USAID Resources Managed and Expenditures Locally Incurred by
                               Mercy Corps Under Community Action Program III, USAID/Iraq Cooperative
                               Agreement No. 267-A-00-08-00505-00, for the Period October 1, 2008, to
                               September 30, 2010
11/29/11      E-267-12-003-D   Independent Financial Audit of International Foundation for Election Systems (IFES)
                               Direct Costs Incurred and Costs Billed From July 1, 2007, to June 30, 2009, Under
                               Subawards With IFES Through the Consortium for Elections and Political Process
                               Strengthening Under Its USAID Cooperative Agreement
11/20/11      E-267-12-002-D   Independent Financial Audit of Development Alternatives Inc. Report on Costs
                               Incurred and Billed Under USAID Contract No. 267-C-00-07-00505-00, for the
                               Period September 28, 2007, Through September 30, 2008
11/17/11      E-267-12-001-D   Independent Financial Audit of Edinburgh Risk and Security Management Limited’s
                               Report on Audit of Costs Incurred and Billed From July 1, 2007, to September 30,
                               2007, Under Subaward With the International Foundation for Election Systems
                               Through the Consortium for Elections and Political Process Strengthening Under
                               USAID Cooperative Agreement No. 267-A-00-04-00405-00




USAID OIG Iraq Oversight Report                                                                                  41
11/15/11       E-267-12-001-P   Audit of USAID/Iraq's Community Action Program Activities Implemented by
                                International Relief and Development

10/16/11       E-267-12-002-N   Financial Audit of USAID Resources Managed and Expenditures Locally Incurred by
                                CHF International, Under USAID Cooperative Agreement No. 267-A-00-08-00503-
                                00, Community Action Program, for the Period October 1, 2008, to September 30,
                                2010
10/06/11       E-267-12-001-N   Financial Audit of USAID Resources Managed and Expenditures Locally Incurred by
                                Cardno Emerging Market Group Under the Health Promotion Program in Iraq,
                                USAID/Iraq Task Order No. 267-GHS-I-03-07-00016, for the Period September 30,
                                2009, to October 31, 2010

     FY 2011

09/12/11       E-267-11-004-D   Independent Financial Audit of International Resources Group Ltd. Report on Costs
                                Incurred and Billed Under USAID Contract No. 517-C-00-04-00106-00, for the
                                Period January 1, 2008, Through February 28, 2009
08/04/11       E-267-11-003-P   Audit of USAID/Iraq's Microfinance Activity Under Its Provincial Economic Growth
                                Program

06/29/11       E-267-11-003-D   Independent Financial Audit of International Business and Technical Consultants Inc.
                                Report on Costs Incurred and Billed Under USAID Contract No. 267-C-00-05-
                                00508-00, for the Period January 1, 2008, Through December 31, 2008
05/16/11       E-267-11-002-P   Audit of USAID/Iraq's Agribusiness Program

05/16/11       E-267-11-002-N   Financial Audit of USAID Resources Managed and Expenditures Locally Incurred by
                                AECOM International Development Under the Iraq Legislative Strengthening
                                Program, USAID/Iraq Task Order No. 263-I-03-06-00015-00, for the Period
                                October 1, 2008, to September 30, 2010
03/16/11       E-267-11-001-N   Closeout Financial Audit of the Fund Accountability Statement of USAID Resources
                                Managed by International Relief and Development Inc. Under Cooperative
                                Agreement No. 267-A-00-06-00503-00, Community Stabilization Program, for the
                                Period October 1, 2008, to October 31, 2009
12/12/10       E-267-11-002-S   Review of USAID/Iraq's Contractors' Compliance with the Trafficking Victims
                                Protection Reauthorization Act of 2008
12/10/10       E-267-11-002-D   Financial Audit of Costs Incurred and Billed by Research Triangle Institute Under
                                USAID Contract No. 267-C-00-05-00505-00, for the Period January 1, 2008,
                                Through December 31, 2008
11/29/10       E-267-11-001-S   Survey of Security Incidents Reported by Private Security Contractors of
                                USAID/Iraq's Contractors and Grantees
11/22/10       E-267-11-001-P   Audit of USAID/Iraq's Payroll Payments to Foreign Service Nationals, Third Country
                                Nationals, and U.S. Personal Service Contractors
                                Financial Audit of Costs Incurred and Billed by International Relief and Development
 11/07/10      E-267-11-001-D   Inc. Under USAID Cooperative Agreement No. 267-A-00-06-00503-00, for the
                                Period October 1, 2007, Through September 30, 2008




42                                                                              USAID OIG Iraq Oversight Report
    FY 2010

09/19/10      E-267-10-002-P   Audit of USAID/Iraq's Implementation of the Iraq Financial Management Information
                               System
06/23/10      E-267-10-003-D   Financial Audit of Direct Costs Incurred by Air Serv International Under USAID
                               Grant No. DFD-G-00-04-00192-00

03/31/10      E-267-10-001-P   Audit of USAID's Internally Displaced Persons Activities in Iraq
11/09/09      E-267-10-002-D   Financial Audit of Billed Amounts by Gulf Catering Company Under USAID Contract
                               No. 267-C-00-05-00514-00, From October 1, 2005, Through October 31, 2008
                               Financial Audit of Direct Costs Incurred and Costs Billed by the International
                               Foundation for Electoral Systems Under USAID Cooperative Agreement Nos. 267-A-
 10/29/09     E-267-10-001-D   00-04-00405-00 From October 1, 2005, Through June 30, 2007; AFP-A-00-04-00014-
                               00 From July 9, 2004, Through June 30, 2006; and REE-A-00-04-00050-00 From
                               July 26, 2004, Through July 31, 2006

    FY 2009

08/12/09      E-267-09-005-P   Audit of USAID/Iraq's Iraq Rapid Assistance Program
08/10/09      E-267-09-018-D   Evaluation Report on BearingPoint Inc.'s Purchase Existence and Consumption
                               Practices in Baghdad, Iraq

08/03/09      E-267-09-017-D   Financial Audit of Costs and Payments Made to Business Systems House by Research
                               Triangle Institute for the Period March 23, 2003, to September 30, 2007
07/20/09      E-267-09-016-D   Financial Audit on Costs Verified for BearingPoint Inc. Under USAID Contract No.
                               267-C-00-04-00405-00, for the Period October 1, 2007, Through May 15, 2009
07/14/09      E-267-09-015-D   Evaluation Report on Floor Checks of BearingPoint, Inc.'s Financial Management
                               Information System Project Employees in Iraq
06/25/09      E-267-09-013-D   Financial Audit of Direct Costs Incurred by Research Triangle Institute Under
                               Contract No. 267-C-00-05-00505-00, From January 1, 2007, Through December 31,
                               2007

06/25/09      E-267-09-014-D   Financial Audit of Costs Incurred and Billed by International Business and Technical
                               Consultants Inc. Under USAID Contract No. 267-C-00-05-00508-00, for the Period
                               January 1, 2007, Through December 31, 2007
06/03/09      E-267-09-004-P   Audit of USAID/Iraq's Economic Governance II Program
06/02/09      E-267-09-012-D   Financial Audit of Costs Recorded by Sabre International Security Under USAID
                               Cooperative Agreement No. 267-A-00-06-00507-00, for the Period September 30,
                               2006, Through September 30, 2007; and USAID Agreement No. 267-A-00-06-00503-
                               00, for the Period May 29, 2006, Through September 30, 2007
05/31/09      E-267-09-003-P   Audit of USAID/Iraq's Local Governance Programs II Activities
05/28/09      E-267-09-011-D   Financial Audit of Direct Costs Incurred and Billed by CHF International Under
                               USAID Agreement No. AFP-A-00-03-00004-00 (ICAP I), for August 1, 2005, Through
                               April 30, 2007, and USAID Agreement No. 267-A-00-06-00507-00 (ICAP II), for
                               September 30, 2006, Through September 30, 2007



USAID OIG Iraq Oversight Report                                                                                  43
05/08/09       E-267-09-010-D   Report on the Application of Agreed-Upon Procedures on Bechtel National Inc.'s
                                Settlement of Subcontractors' Requests for Equitable Adjustments - Iraq
                                Infrastructure Reconstruction Project Phase I and II, Contract Nos. EEE-C-00-03-
                                00018-00 and SPU-C-00-04-00001-00
04/29/09       E-267-09-009-D   Financial Audit of Direct Costs Incurred and Costs Billed by the International
               (rescinded)      Foundation for Electoral Systems for Subawards Through the Consortium for
                                Elections and Political Process Strengthening Under USAID Cooperative
                                Arrangements Nos. 267-A-00-04-00405-00, AFP-A-00-004-00014-00, and REE-A-00-
                                04-00050-00, for the Period July 9, 2004, Through June 30, 2007
03/08/09       E-267-09-008-D   Financial Audit of Costs Incurred and Billed by Louis Berger Group Inc. Under
                                Contract No. 267-C-00-07-00500-00, for the Period May 14, 2007, to May 13, 2008
03/04/09       E-267-09-002-P   Audit of USAID/Iraq's Oversight of Private Security Contractors in Iraq
01/28/09       E-267-09-007-D   Financial Audit of Costs Incurred and Billed by Save the Children Federation Inc.
                                Under Cooperative Agreement No. AFP-A-00-03-00005-00 for the Period August 1,
                                2004, to April 1, 2006
01/27/09       E-267-09-006-D   Financial Audit of the Costs Incurred and Billed by Development Alternatives Inc.
                                Under USAID Contract No. RAN-C-00-04-00002-00, for the Period July 1, 2006,
                                Through December 31, 2006

11/25/08       E-267-09-001-P   Audit of USAID/Iraq's National Capacity Development Program
11/14/08       E-267-09-003-D   Financial Audit of Costs Incurred and Billed by International Relief and Development
                                Inc. Under USAID Cooperative Agreement No. AFP-A-OO-03-00002-00, for the
                                Period November 1, 2005, Through March 31, 2007
11/14/08       E-267-09-001-D   Financial Audit of Costs Incurred and Billed by International Relief and Development
                                Inc. Under USAID Cooperative Agreement No. 267-A-00-06-00503-00, for the
                                Period May 29, 2006, Through September 30, 2007
11/14/08       E-267-09-002-D   Financial Audit of Costs Incurred and Billed by the Sandi Group Under its
               (rescinded)      Subcontract with the Louis Berger Group Inc. Under USAID Contract No. 267-C-00-
                                04-00435-00, for the Period August 1, 2005, Through September 30, 2006

11/14/08       E-267-09-004-D   Financial Audit of Costs Incurred and Billed by Management Systems International
                                Under USAID Contract No. DFD-I-01-05-00221-00, for the Period July 27, 2006,
                                Through September 30, 2007
11/14/08       E-267-09-005-D   Financial Audit of Costs Incurred and Billed by the Services Group Inc. Under
                                Contract No. 267-C-00-04-00435-00, for the Period October 1, 2006, Through
                                September 30, 2007

     FY 2008

09/30/08       E-267-08-006-P   Audit of USAID/Iraq's Agribusiness Program
08/12/08       E-267-08-014-D   Financial Audit of Costs Incurred and Billed by International Relief and Development
                                Inc. Under USAID Cooperative Agreement No. AFP-A-OO-03-00002-00, for the
                                Period November 1, 2005, Through March 31, 2007
08/05/08       E-267-08-005-P   Audit of USAID/Iraq's Community Action Program II



44                                                                             USAID OIG Iraq Oversight Report
07/06/08    E-267-08-013-D   Financial Audit of the Subcontract Costs Submitted by Sallyport Global Services Ltd.,
                             for Security Services and Life Support Services Under USAID Prime Contract No.
                             267-C-00-04-00435-00 With Louis Berger Group Inc. for the Period October 1,
                             2006, Through September 30, 2007
07/03/08    E-267-08-004-P   Audit of USAID/Iraq's Monitoring and Evaluation Performance Program
06/24/08    E-267-08-003-P   Audit of USAID/Iraq's Management of Its Official Vehicle Fleet
05/27/08    E-267-08-012-D   Financial Audit of Costs Incurred by Louis Berger Group Inc. Under Contract No.
                             2670C-00-04-00435-00, From October 1, 2006, Through September 30, 2007
05/20/08    E-267-08-011-D   Financial Audit of Costs Incurred by Mercy Corps Under USAID Cooperative
                             Agreement No. AFP-A-00-03-00001-00, From August 1, 2007, Through March 31,
                             2007
05/13/08    E-267-08-010-D   Financial Audit of Costs Incurred and Billed by Agricultural Cooperative
                             Development International / Volunteers Overseas Cooperative Assistance, Under
                             Cooperative Agreement No. AFP-A-00-03-00003-00, From August 1, 2004, to
                             March 21, 2007
04/15/08    E-267-08-009-D   Financial Audit of Costs Incurred and Billed by BearingPoint Inc. Under Contract No.
                             267-C-00-04-00405-00, for the Period October 1, 2006, Through September 30,
                             2007

04/03/08    E-267-08-002-P   Audit of USAID/Iraq's Management of the Marla Ruzicka Iraqi War Victims Fund
03/18/08    E-267-08-001-P   Audit of USAID/Iraq's Community Stabilization Program
03/06/08    E-267-08-008-D   Financial Audit of Costs Incurred and Billed by International Business and Technical
                             Consultants Inc. Under Contract No. 267-C-00-05-00508-00, From January 1, 2006,
                             Through December 31, 2006
02/24/08    E-267-08-007-D   Financial Audit of Costs Incurred and Billed by IntraHealth International, Inc. Under
                             its Subcontract No. 15-330-0208954 With Research Triangle Institute Under
                             Contract No. GHS-1-04-03-00028-00, for the Period April 26, 2005, Through
                             December 31, 2006

02/12/08    E-267-08-006-D   Financial Audit of Costs Incurred and Billed by Bechtel National Inc. Under Contract
                             Nos. EEE-C-00-03-00018-00 (Phase I) and SPU-C-00-04-00001-00 (Phase II), From
                             November 1, 2006, to September 30, 2007
02/04/08    E-267-08-004-D   Financial Audit of Costs Incurred and Billed by Creative Associates International Inc.
                             Under Contract No. EPP-C-00-04-00004-00, From July 1, 2005, Through
                             February 28, 2007

02/04/08    E-267-08-005-D   Financial Audit of Costs Incurred and Billed by Management Systems International
                             Under USAID Contract No. AEP I-00-00-00024-00, Task No. 08, From June 26,
                             2003, Through May 31, 2005
01/23/08    E-267-08-003-D   Financial Audit of Costs Incurred and Billed by America’s Development Foundation
                             Under Contract No. GEW-C-00-04-00001-00, From October 1, 2006, Through
                             June 30, 2007




USAID OIG Iraq Oversight Report                                                                                 45
12/12/07       E-267-08-002-D   Financial Audit of Costs Incurred and Billed by Sallyport Global Services Ltd., Under
                                Is Subcontracts With Louis Berger Group Inc. Under USAID Contract Nos. 267-C-
                                00-04-00417-00, for the Period September 27, 2004, Through September 30, 2005,
                                and 267-C-00-04-00435-00, for the Period August 1, 2005, Through March 31, 2007
10/04/07       E-267-08-001-D   Financial Audit of Direct Costs Incurred and Billed by Research Triangle Institute
                                Under Contract No. GHS-I-04-03-00028-00, From April 26, 2005, to December 31,
                                2006

     FY 2007

09/27/07       E-267-07-008-P   Audit of USAID/Iraq's Participation in Provincial Reconstruction Teams in Iraq
09/20/07       E-267-07-024-D   Financial Audit of Costs Incurred and Billed by Research Triangle Institute Under
                                Contract No. 267-C-00-05-00505-00, From January 1, 2006, to December 31, 2006
09/12/07       E-267-07-022-D   Financial Audit of Costs Incurred and Billed by the National Democratic Institute for
                                International Affairs Under Cooperative Agreement No. AFP-A-00-04-00014-00,
                                From July 9, 2004, to June 30, 2006
09/12/07       E-267-07-023-D   Financial Audit of Costs Incurred and Billed by the International Republican Institute
                                Under Cooperative Agreement No. REE-A-00-04-00050-00, From July 26, 2004,
                                Through July 31, 2006
09/10/07       E-267-07-021-D   Financial Audit of Costs Incurred and Billed by Louis Berger Group Inc. Under
                                Contract No. 267-C-00-04-00417-00, for the Period September 27, 2004, Through
                                September 30, 2005

08/16/07       E-267-07-020-D   Financial Audit of Costs Incurred and Billed by Louis Berger Group Inc. Under
                                Contract No. 267-C-00-04-00435-00, for the Period August 1, 2004, Through
                                September 30, 2006
08/12/07       E-267-07-019-D   Financial Audit of Costs Incurred and Billed by the Volunteers for Economic Growth
                                Alliance Under USAID Associate Cooperative Agreement No. EGA-A-00-04-00002-
                                00, for the Period July 7, 2004, Through January 6, 2006

08/02/07       E-267-07-018-D   Financial Audit of Costs Incurred and Billed by Development Alternatives Inc. Under
                                USAID Contract No. RAN-C-00-04-00002-00, for the Period July 1, 2005, Through
                                November 30, 2006
07/31/07       E-267-07-007-P   Audit of USAID/Iraq's Local Governance Activities
07/11/07       E-267-07-006-P   Audit of the Office of Foreign Disaster Assistance Program in Iraq
06/19/07       E-267-07-017-D   Financial Audit of Costs Incurred and Billed by the International Republican Institute
                                Under Cooperative Agreement No. AFP-A-00-04-00014-00, for the Period
                                November 1, 2005, Through June 30, 2006
06/14/07       E-267-07-016-D   Financial Audit of Costs Incurred and Billed by Abt Associates Inc. Under USAID
                                Contract No. RAN-C-00-03-00010-00, for September 25, 2004, Through
                                November 30, 2004
06/12/07       E-267-07-015-D   Financial Audit of Costs Billed by Kroll Government Services Inc. Under Subcontract
                                No. AID 2004-T-00405-000-0058, From May to September 2006




46                                                                               USAID OIG Iraq Oversight Report
06/10/07    E-267-07-014-D   Financial Audit of Costs Incurred and Billed by the National Democratic Institute of
                             International Affairs, Under Cooperative Agreement No. REE-A-00-04-00050-00,
                             From November 1, 2005, to July 31, 2006
06/06/07    E-267-07-005-P   Audit of USAID/Iraq's Activity Planning and Its Reporting Process Under Section 2207
                             of Public Law 108-106
05/10/07    E-267-07-013-D   Financial Audit of Public Vouchers Submitted by International Resources Group Ltd.
                             From November 1, 2004, to September 30, 2006
05/03/07    E-267-07-004-P   Audit of USAID/Iraq's Telecommunications Activities
04/24/07    E-267-07-012-D   Financial Audit of Direct Costs Incurred and Billed by America's Development
                             Foundation Under USAID Contract No. GEW-C-00-04-00001-00, From July 1, 2005,
                             to September 30, 2006
04/03/07    E-267-07-011-D   Financial Audit of Costs Incurred and Billed Under USAID Contract No. 267-C-00-
                             04-00405-00 With Bearing Point Inc. for the Period August 1, 2005, Through
                             September 30, 2006
03/27/07    E-267-07-010-D   Financial Audit of Costs Incurred and Billed by the International Foundation for
                             Election Systems Under Cooperative Agreement No. 267-A-00-04-00405-00, From
                             September 1, 2004, Through September 30, 2005

03/15/07    E-267-07-009-D   Financial Audit of Costs Incurred and Billed by Bechtel National Inc. Under Contract
                             No. EEE-C-00-03-00018-00 for the Period October 1, 2005, Through February 28,
                             2006, and Contract No. SPU-C-00-04-00001-00 for the Period October 1, 2005,
                             Through October 31, 2006
02/04/07    E-267-07-003-P   Follow-Up Audit of USAID/Iraq's Education Activities

01/22/07    E-267-07-002-P   Audit of USAID/Iraq's Agriculture Reconstruction and Development Program
01/03/07    E-267-07-008-D   Financial Audit of Costs Incurred and Billed by the Research Foundation of the State
                             University of New York Under its Cooperative Subagreement No. 04-04465-IRA.0-
                             408 With National Democratic Institute Under USAID Cooperative Agreement No.
                             REE-A-00-04-00050-00 for the Period July 26, 2004, Through December 31, 2005

12/18/06    E-267-07-007-D   Financial Audit of Costs Incurred and Billed by Research Triangle Institute Under
                             Contract No. 267-C-00-05-00505-00, for the Period May 9, 2005, Through
                             December 31, 2005
11/06/06    E-267-07-005-D   Financial Audit of Costs Incurred and Billed by International Relief and Development
                             Inc. Under Cooperative Agreement No. AFP-A-00-03-00002-00, From August 1,
                             2004, Through October 31, 2005

11/06/06    E-267-07-006-D   Financial Audit of Costs Incurred and Billed by the National Democratic Institute of
                             International Affairs, Under Cooperative Agreement No. REE-A-00-04-00050-00,
                             From July 26, 2004, to October 31, 2005
11/05/06    E-267-07-001-P   Audit of USAID/Iraq's Civil Society Activities




USAID OIG Iraq Oversight Report                                                                                  47
10/25/06       E-267-07-004-D   Financial Audit of Billed Costs by SkyLink Air and Logistics Support Inc. Under USAID
                                Contract No. DFD-C-00-03-00026-00, for the Period October 1, 2004, Through
                                January 31, 2005, and Determination on the Allowability of Previously Questioned
                                Serco Inc. Costs
10/19/06       E-267-07-003-D   Financial Audit of Fiscal Year 2006 Floor Check and Review of Timekeeping
                                Procedures Under Contract No. 267-C-00-05-00505-00, From July 18, 2006, to
                                October 13, 2006, With Research Triangle Institute
10/02/06       E-267-07-002-D   Audit of the Accounting System of Unity Resources Group Under Subcontract No.
                                IDG 31-2, With Research Triangle Institute Under Contract No. 267-C-00-05-00505-
                                00
10/01/06       E-267-07-001-D   Financial Audit of Direct Costs Incurred and Billed by the International Republican
                                Institute Through the Consortium for Elections and Political Process Strengthening
                                Under USAID Agreement No. AFP-A-00-04-00014-00, for the Period July 9, 2004,
                                Through October 1, 2005

     FY 2006

09/18/06       E-267-06-017-D   Financial Audit of Direct Costs Incurred by Bechtel National Inc. Under Iraq
                                Infrastructure Reconstruction Phase I and II Contracts No. EEE-C-00-03-00018-00
                                and No. SPU-C-00-04-00001-00, for the Period October 1, 2004, Through
                                September 30, 2005
08/16/06       E-267-06-004-P   Audit of USAID Transition Initiatives in Iraq
08/14/06       E-267-06-016-D   Financial Audit of Costs Incurred by Crown Agents Consultancy Inc. Under
                                Subcontract No. 1100-003 With International Resources Group Inc. Under Contract
                                No. EMT-C-00-03-00007-00 and Contract No. 517-C-00-04-00106-00, for the Period
                                November 1, 2004, Through December 31, 2004
07/27/06       E-267-06-015-D   Financial Audit of Costs Incurred by International Business and Technical Consultants
                                Inc. Under Contract No. 267-C-0500508-00, for the Period May 31, 2005, Through
                                December 31, 2005

07/10/06       E-267-06-003-P   Audit of USAID/Iraq's Local Governance Activities
07/06/06       E-267-06-014-D   Financial Audit of Costs Incurred by BearingPoint Inc. Under Contract No. 267-C-00-
                                04-00405, From September 4, 2004, to July 31, 2005
07/03/06       E-267-06-013-D   Financial Audit of Costs Incurred by Creative Associates International Inc. Under
                                Contract No. EPP-C-00-04-00004-00, From July 1, 2004, Through June 30, 2005
07/02/06       E-267-06-012-D   Financial Audit of Invoices Submitted on Kroll Government Services Inc. Under
                                Subcontract No. AID-2004-T-00043-000-0021, From February 2004 to September
                                2004
06/23/06       E-267-06-011-D   Financial Audit of Costs Incurred and Billed by Research Triangle Institute Under
                                USAID Contract No. EDG-C-00-03-00010-00, for the Period October 1, 2004,
                                Through July 31, 2005




48                                                                              USAID OIG Iraq Oversight Report
06/15/06      E-267-06-010-D   Financial Audit of Costs Billed by Research Triangle Institute Under Contract No.
                               EDG-C-00-03-00010-00, for the Period March 26, 2004, Through September 30,
                               2004
06/06/06      E-267-06-009-D   Financial Audit of Costs Incurred by Cooperative Housing Federation International
                               Under Cooperative Agreement No. AFP-A-00-03-00004-00, From August 1, 2004, to
                               July 31, 2005
05/18/06      E-267-06-008-D   Financial Audit of Costs Incurred by International Relief and Development Inc. Under
                               USAID Cooperative Agreement No. AFP-A-00-03-00002, From May 16, 2003,
                               Through July 31, 2004
04/23/06      E-267-06-007-D   Financial Audit of Costs Incurred by Development Alternatives Inc. Under Contract
                               No. RAN-C-00-04-00002-00, From October 15, 2004, Through June 30, 2005
02/28/06      E-267-06-002-D   Financial Audit of System for Request for Equitable Adjustment Procedures by
                               Bechtel National Inc. Under USAID Contract No. EEE-C-00-03-00018-00 and SPU-C-
                               00-04-00001-00
02/22/06      E-267-06-006-D   Financial Audit of Costs Incurred by Louis Berger Group Inc., Under Contract No.
                               267-C-00-04-0435-00, From October 1, 2004, to July 31, 2005
02/16/06      E-267-06-002-P   Audit of USAID/Iraq's Non-Expendable Property

02/12/06      E-267-06-005-D   Financial Audit of Costs Incurred and Billed by America’s Development Foundation
                               Under USAID Contract No. GEW-C-00-04-00001, for the Period August 16, 2004,
                               to June 30, 2005
02/01/06      E-267-06-004-D   Financial Audit of Costs Incurred by CHF International Under USAID Cooperative
                               Agreement No. AFP-A-00-03-00004, From May 16, 2003, Through July 31, 2004

12/20/05      E-267-06-001-P   Audit of USAID/Iraq's Basic Education Activities
11/06/05      9-267-06-001-P   Audit of the Accuracy of Biographical Datasheets Provided by International
                               Resources Group to USAID for Contracts in Iraq
10/05/05      E-267-06-001-D   Evaluation of Labor Timekeeping System Used by Bechtel National Inc. Under USAID
                               Contract Nos. EEE-C-00-03-00018-00 and SPU-C-00-04-00001-00, Between
                               February and July 2005

    FY 2005

09/27/05      E-267-05-005-P   Audit of USAID/Iraq's Cash Control Procedures
09/23/05      E-267-05-019-D   Audit of Material and Services Procured by Bechtel National Inc. Under Contract No.
                               EEE-C-00-03-00018-00 and SPU-C-00-04-00001-00, Between January and February
                               2005
09/22/05      E-267-05-018-D   Financial Audit of Costs Incurred by Save the Children Federation Inc. Under USAID
                               Cooperative Agreement No. AFP-A-00-03-00005, From May 16, 2003, Through
                               July 31, 2004
09/22/05      E-267-05-020-D   Financial Audit of Costs Incurred by Siemens Westinghouse Under Subcontract No.
                               24910-30N-ESL- MG00-001 and Subcontract No. 24910-30B-ESD-MGSO-013, From
                               Inception Until September 30, 2004




USAID OIG Iraq Oversight Report                                                                                    49
06/30/05   E-267-05-004-P   Audit of USAID/Iraq's Water and Sanitation Rehabilitation Activities
06/29/05   E-267-05-003-P   Audit of USAID/Iraq's Electrical Power Sector Activities
06/27/05   E-267-05-016-D   Financial Audit of Costs Incurred and Billed by Abt Associates Inc. From April 1,
                            2004, Through September 24, 2004, Under Contract No. RAN-C-00-03-00010-00
06/27/05   E-267-05-017-D   Financial Audit of SkyLink Air and Logistic Support Inc. Costs for the Period March 1,
                            2004, Through September 30, 2004, Under USAID Contract No. DFD-C-00-03-
                            00026-00
06/16/05   E-267-05-014-D   Financial Audit of Costs Incurred and Billed by the International Resources Group
                            From April 1, 2004, Through May 4, 2004, Under Contract No. EMT-C-00-03-00007,
                            and From May 4, 2004, Through October 31, 2004, Under Contract No. 517-C-00-
                            04-00106-00
06/16/05   E-267-05-015-D   Financial Audit of Costs Incurred by Bechtel National Inc. From March 1, 2004, to
                            September 30, 2004, Under Contract No. EEE-C-00-03-00018-00, and From
                            January 5, 2004, to September 30, 2004, Under Contract No. SPU-C-00-04-00001-00
06/14/05   E-267-05-013-D   Financial Audit of Costs Incurred and Billed to USAID by BearingPoint Inc. Under
                            USAID Contract No. RAN-C-00-03-00043-00, From April 1, 2004, Through
                            September 30, 2004

05/17/05   E-267-05-012-D   Financial Audit of Costs Billed by Creative Associates International Inc. Under
                            Contract No. EDG-C-00-03-00011-00, From March 1, 2004, Through August 31,
                            2004
05/15/05   E-267-05-011-D   Financial Audit of Costs Billed by Research Triangle Institute Under Contract No.
                            EDG-C-00-03-00010-00, for the Period March 26, 2004, Through September 30,
                            2004

04/28/05   E-267-05-010-D   Audit of SkyLink Air & Logistical Support, Inc.'s Labor Systems and Controls Under
                            Contract No. DFD-C-00-03-00026-00, Conducted on December 28, 2004, and
                            January 13, 2005
04/21/05   E-267-05-009-D   Financial Audit of Costs Incurred by Agricultural Cooperative Development
                            International / Volunteers Overseas Cooperative Assistance Under USAID
                            Cooperative Agreement No. AFP-A-00-03-00003-00, From May 16, 2003, Through
                            July 31, 2004
03/22/05   E-267-05-008-D   Financial Audit of Costs Incurred by Mercy Corps Under USAID Cooperative
                            Agreement No. AFP-A-00-03-00001-00, From May 16, 2003, Through July 31, 2004
03/17/05   E-266-04-043-D   Financial Audit of Costs Incurred and Billed to USAID by BearingPoint Inc. Under
                            Contract No. RAN-C-00-03-00043-00 from December 1, 2003, to March 31, 2004
03/01/05   E-267-05-007-D   Financial Audit of Costs Billed on Development Alternatives Inc. Prime Contract Nos.
                            HDA-I-00-03-00061-00, From January 1, 2004, Through April 5, 2004, and DOT-I-00-
                            03-00004-00, From February 5, 2004, to August 31, 2004
02/28/05   E-267-05-002-P   Audit of USAID/Iraq's Health System Strengthening Contract Activities




50                                                                          USAID OIG Iraq Oversight Report
02/27/05      E-267-05-006-D   Financial Audit of Costs Billed Under Parsons Infrastructure and Technology Group
                               Subcontract No. 24964-000-ESU-W000-001, From January 12, 2004, Through
                               September 24, 2004
02/19/05      E-267-05-005-D   Financial Audit of Incurred Costs Submitted on Voucher Nos. 8 Through 12 for
                               Contract No. TRN-C-00-03-00054-00, With Stevedoring Services of America
02/10/05      E-267-05-004-D   Financial Audit of Costs Incurred Under Subcontracts 24910-TSC-003 and 24910-
                               GSC-005 (Bechtel National Inc. is Prime and ArmorGroup Services Limited is the
                               Subcontractor), From May 1, 2003, Through September 30, 2004

01/31/05      E-267-05-001-P   Audit of USAID/Iraq's Community Action Program
01/29/05      E-267-05-003-D   Audit of Materials, Equipment, and Services Incurred Under USAID Contract No.
                               EDG-C-00-03-00010-00 With Research Triangle Institute
01/17/05      E-267-05-002-D   Audit on Kroll Government Services Inc. Related to Labor Provided for Security
                               Services Under USAID Contract No. 267-C-00-03-00001-00, From April 1, 2004, to
                               December 31, 2004
01/06/05      A-267-05-005-P   Audit of USAID's Compliance With Federal Regulations in Awarding the Contract for
                               Security Services in Iraq to Kroll Government Services International Inc.
10/21/04      E-267-05-001-D   Financial Audit of Costs Incurred and Billed to USAID by International Resources
                               Group Under Contract No. EMT-C-00-03-00007, From September 1, 2003, to
                               March 31, 2004

    FY 2004

09/23/04      A-000-04-004-P   Audit of USAID's Compliance With Federal Regulations in Awarding the Iraq Basic
                               Education Phase II Contract
09/20/04      E-266-04-004-P   Audit of USAID/Iraq's Economic Reform Program
09/04/04      E-266-04-044-D   Financial Audit of Incurred Direct Costs Under Iraq Infrastructure Reconstruction by
                               Bechtel National Inc. Under Contract EEE-C-00-03-00018-00, From September 1,
                               2003, Through February 29, 2004
08/09/04      E-266-04-042-D   Financial Audit of Costs Incurred and Billed by Research Triangle Institute Under
                               USAID Contract No. EDG-C-00-03-00010-00, From December 1, 2003, Through
                               March 25, 2004
08/06/04      E-266-04-003-P   Audit of USAID's Compliance with Federal Regulations in Awarding the Iraq Phase II
                               Reconstruction and Rehabilitation, Program Advisors and Oversight Contract
08/05/04      E-266-04-041-D   Record of Labor Timekeeping System Used by Bechtel National Inc. Under Contract
                               Nos. EEE-C-00-03-00018-00 and SPU-C-00-04-00001-00
07/19/04      E-266-04-040-D   Financial Audit Report on Review of Billed Costs by SkyLink Air and Logistic Support
                               From November 1, 2003, to February 29, 2004, Under Contract DFD-C-00-03-
                               00026-00
06/30/04      E-266-04-039-D   Financial Audit Report on Review of Costs Incurred and Billed by SSA Marine on
                               Voucher Nos. 3 Through 7 Under Contract No. TRN-C-00-03-00054-00




USAID OIG Iraq Oversight Report                                                                                    51
06/20/04   E-266-04-038-D   Report on Audit of Costs Incurred by Abt Associates Inc. From October 25, 2003,
                            Through March 26, 2004, Under USAID Contract No. RAN-C-00-03-00010-00

06/18/04   E-266-04-037-D   Audit of Bechtel National Inc.'s Proposed Common Cost Pool Recovery Rate Under
                            Reconstruction Project Phase I and II
06/09/04   E-266-04-001-F   Audit of USAID/Iraq's Cash Control Procedures
06/03/04   E-266-04-002-P   Audit of USAID/Iraq's Infrastructure Reconstruction and Rehabilitation Program
05/27/04   E-266-04-036-D   Financial Audit of Costs Incurred and Billed by Creative Associates International Inc.
                            Under USAID Contract No. EDG-C-00-03-00011-00, for the Period November 1,
                            2003, Through February 28, 2004
05/19/04   A-000-04-003-P   Capping Report on the Audit of USAID's Compliance With Federal Regulations in
                            Awarding the Iraq Phase I Contracts

05/14/04   E-266-04-035-D   Report on Audit of Proposed Iraq Infrastructure Reconstruction Project Controller
                            Procedure 5AP-A01-018 for Estimating, Accumulating and Recovering Direct
                            Common Costs
04/20/04   AIG/A Memo       USAID's Compliance With Federal Regulations in Awarding the Iraq Infrastructure
           04-006           Reconstruction Program Phase II Contract

04/12/04   E-266-04-034-D   Financial Audit of Costs Incurred and Billed by Development Alternatives Inc. Under
                            USAID Prime Contract No. HDA-I-00-03-00061-00, and Subcontract No. 3825-100-
                            03S-001, for the Period January 6, 2003, to December 31, 2003
03/24/04   E-266-04-033-D   Financial Audit of Costs Incurred and Billed by BearingPoint Inc. Under USAID
                            Contract RAN-C-00-03-00043-00, From July 18, 2003, Through November 30, 2003

03/22/04   AIG/A Memo       USAID's Compliance With Federal Regulations in Awarding the Contract for
           04-005           Economic Recovery, Reform and Sustained Growth in Iraq
03/19/04   E-266-04-001-P   Audit of USAID's Results Data for Its Education Activities in Iraq
03/10/04   E-266-04-031-D   Financial Audit of Costs Incurred and Billed by Management Systems International
                            Under USAID Contract AEP I-00-00-00024-00, From June 25, 2003, Through January
                            30, 2004
03/10/04   E-266-04-032-D   Financial Audit of Costs Incurred and Billed by the International Resources Group
                            Under USAID Contract No. EMT-C-00-03-00007, From February 5, 2003, Through
                            August 31, 2003
03/07/04   E-266-04-030-D   Report on the Evaluation of Research Triangle Institute’s Compliance With
                            Established Timekeeping System Policies and Procedures for Recording Labor
                            Charges Under USAID Contract No. EDG-C-00-03-00010-00
03/01/04   E-266-04-029-D   Report on Evaluation of Abt Associates Inc.’s Usage and Controls of Materials and
                            Equipment Procured Under USAID Contract No. RAN-C-00-03-00010-00
02/28/04   E-266-04-028-D   Financial Audit of Costs Incurred and Billed by Creative Associates International Inc.
                            Under USAID Contract No. EDG-C-00-03-00011-00, From April 11, 2003, Through
                            October 31, 2003




52                                                                           USAID OIG Iraq Oversight Report
02/26/04    E-266-04-025-D   Report on Audit of Creative Associates International, Inc.’s Usage and Controls of
                             Materials and Services Procured Under USAID Contract No. EDG-C-00-03-00011-00

02/26/04    E-266-04-026-D   Financial Audit of Costs Incurred and Billed by Research Triangle Institute Under
                             USAID Contract No. EDG-C-00-03-00010-00, From March 26, 2003, Through
                             November 30, 2003
02/26/04    E-266-04-027-D   Report on the Audit of Research Triangle Institute’s Usage and Controls of Materials
                             and Services Procured Under USAID Contract No. EDG-C-00-03-00010-00
02/21/04    E-266-04-024-D   Report on Evaluation of Creative Associates International, Inc.’s Compliance With
                             Established Timekeeping System Policies and Procedures for Recording Labor
                             Charges Under USAID Contract No. EDG-C-00-03-00011-00
02/15/04    E-266-04-021-D   Report on Evaluation of Abt Associates Inc.’s Compliance With Established
                             Timekeeping System Policies and Procedures for Recording Labor Charges Under
                             USAID Contract No. RAN-C-00-03-00010-00

02/15/04    E-266-04-022-D   Financial Audit of Costs Incurred and Billed by Abt Associates Inc. Under USAID
                             Contract No. RAN-C-00-03-00010-00, From July 18, 2003, Through October 24,
                             2003
02/15/04    E-266-04-023-D   Report on Evaluation of BearingPoint Inc.’s Compliance with Established Timekeeping
                             System Policies and Procedures for Recording Labor Charges Under USAID Contract
                             No. RAN-C-00-03-00043-00
02/14/04    E-266-04-020-D   Financial Audit Report on International Resources Group’s Usage and Controls of
                             Materials and Services Procured Under USAID Contract No. EMT-C-00-03-00007
02/12/04    E-266-04-016-D   Financial Audit of Costs Incurred by Bechtel National Inc. Under USAID’s Iraq
                             Infrastructure Reconstruction Contract EEE-C-00-03-00018-00, From April 17, 2003,
                             (Inception of the Contract) to August 31, 2003
02/12/04    E-266-04-017-D   Audit of Accounting Controls of Bechtel National Inc. Under USAID’s Iraq
                             Infrastructure Reconstruction Contract EEE-C-00-03-00018-00
02/12/04    E-266-04-018-D   Audit of Bechtel National, Inc.’s Subsidiary Billing System for USAID’s Iraq
                             Infrastructure Reconstruction Contract EEE-C-00-03-00018-00

02/12/04    E-266-04-019-D   Financial Audit Report on Review of Costs Incurred and Billed by SSA Marine Under
                             USAID Contract TRN-C-00-03-00054-00, as of August 12, 2003
02/09/04    E-266-04-013-D   Financial Audit Report on SkyLink Air & Logistical Support, Inc.’s Usage and Controls
                             of Materials and Services Procured Under USAID Contract No. DFD-C-00-03-
                             00026-00

02/09/04    E-266-04-014-D   Report on the Audit of the Accounting System of SkyLink Air & Logistical Support,
                             Inc.
02/09/04    E-266-04-015-D   Evaluation of Bechtel National, Inc.’s Usage and Controls of Materials and Services
                             Procured Under USAID Iraq Infrastructure Reconstruction Contract No. EEE-C-00-
                             03-00018-00
01/27/04    AIG/A Memo       USAID's Compliance With Federal Regulations in Awarding the Iraq Airport
            04-003           Administration Contract




USAID OIG Iraq Oversight Report                                                                                  53
01/27/04       AIG/A Memo       USAID's Compliance With Federal Regulations in Awarding the Iraq Seaport
               04-004           Assessment and Operation Contract

01/15/04       E-266-04-012-D   Report on Evaluation of the International Resources Group’s Compliance With
                                Established Timekeeping System Policies and Procedures for Recording Labor
                                Charges Under USAID Contract No. EMT-C-00-03-00007
01/14/04       AIG/A Memo       USAID's Compliance With Federal Regulations in Awarding the Iraq Monitoring and
               04-001           Evaluation Program Performance Task Order
01/14/04       AIG/A Memo       USAID's Compliance With Federal Regulations in Awarding the Agriculture
               04-002           Reconstruction and Development Program for Iraq Contract
01/14/04       E-266-04-011-D   Financial Audit of Costs Incurred and Billed by SkyLink Air and Logistic Support Inc.
                                Under USAID Contract DFD-C-00-03-00026-00, From March 21, 2003, Through
                                October 31, 2003

01/13/04       E-266-04-010-D   Report on Evaluation of SkyLink Air & Logistical Support Inc.’s Compliance With
                                Established Timekeeping System Policies and Procedures for Recording Labor
                                Charges Under USAID Contract No. DFD-C-00-03-00026-00
01/05/04       E-266-04-008-D   Audit of Bechtel National, Inc.’s Internal Controls of Subcontract Awards Under
                                USAID’s Iraq Infrastructure Reconstruction Contract No. EEE-C-00-03-00018-00

01/04/04       E-266-04-009-D   Report on Evaluation of Bechtel National Inc.’s Compliance With Established
                                Timekeeping System Policies and Procedures for Recording Labor Charges Under
                                USAID’s Iraq Infrastructure Reconstruction Contract No. EEE-C-00-03-00018-00
12/05/03       E-266-04-007-D   Financial Audit of SSA Marine’s Controls Over Port Revenues and Expenses at Um
                                Qasr, Iraq, Under USAID Contract No. TRN-C-00-03-00054-00

11/20/03       E-266-04-006-D   Audit of Creative Associates International Inc.’s Internal Controls for the Awarding of
                                Grants
11/19/03       E-266-04-004-D   Survey of Kroll and Associates Inc.’s Accounting System
11/04/03       E-266-04-002-D   Financial Audit of Kroll Associates Inc.'s Proposal for USAID Contract No.267-C-00-
                                03-00001-00
11/04/03       E-266-04-003-D   Report on SSA Marine’s Usage and Controls of Materials and Services Procured
                                Under USAID Contract TRN-C-00-03-00054-00
10/31/03       E-266-04-001-D   Report on Evaluation of Timekeeping Procedures and Practices of SSA Marine
10/17/03       AIG/A Memo       USAID's Compliance With Federal Regulations in Awarding the Health System
               03-005           Strengthening in Post-Conflict Iraq Contract

     FY 2003

09/09/03       AIG/I Memo 03-   USAID's Compliance With Federal Regulations in Awarding the Iraq Sub-National
               004              Governance and Civic Institution Support Contract
07/23/03       AIG/A Memo       USAID's Compliance With Federal Regulations in Awarding the Iraq Infrastructure
               03-003           Reconstruction Contract




54                                                                              USAID OIG Iraq Oversight Report
06/20/03    AIG/A Memo      USAID's Compliance With Federal Regulations in Awarding the Iraq Personnel
            03-002          Support Services Contract

06/06/03    AIG/A Memo      USAID's Compliance With Federal Regulations in Awarding the Iraq Education Sector
            03-001          Contract
04/25/03    (no report      Memorandum of Review of Iraq Seaport Administration and Airports Administration
            number)         Contracts




USAID OIG Iraq Oversight Report                                                                          55
Appendix 5 – Summaries of Performance Audit and Review
Findings, FYs 2010–2011
The following pages provide summaries of OIG performance audit and review findings from
October 1, 2009, to the end of the last reporting period, September 30, 2011. Report summaries
are presented in chronological order, with the most recent performance audits and reviews noted
first.

USAID/Iraq’s Microfinance Activity Under Its Provincial Economic Growth Program (Report No.
E-267-11-003-P, August 4, 2011)

Continued stability in Iraq requires activities—such as microfinance—that stimulate private sector growth
and create jobs. In Iraq, collateral requirements are high, and many poor and low-income individuals are
excluded from bank services. Microfinance institutions were established in Iraq starting in 2003 with funds
from the U.S. Government to provide financial services to this population who would otherwise be unable to
secure loans.

Iraq’s current microfinance activity began in January 2008 with the Provincial Economic Growth Program.
Contracted to Louis Berger Group (LBG), it is expected to cost $174 million and be in operation through
January 2013. The Provincial Economic Growth Program includes seven program areas, one of which is
microfinance. Under the microfinance activity, LBG has provided technical assistance and training to 9
microfinance institutions, and as of December 2010, the USAID-supported microfinance institutions have
provided 257,209 loans valued at $593 million.

Although OIG was unable to confirm any loans with borrowers because of security restrictions, the auditors
determined that the mission’s microfinance activity had increased access to sustainable financial services.
The contractor had also made progress in promoting institutional development.

OIG found that multiple improvements could be made, however. The contract with Louis Berger did not
specifically require a focus for loans to the poor, and the activity did not have indicators to measure such
lending, despite statutory and regulatory direction to do so. In addition, LBG did not consistently calculate
the numbers of jobs that were sustained at firms receiving microloans, one of the goals of the program. As
the contractor changed the methodology in calculating jobs from year to year and the mission neither
verified data nor conducted a data quality assessment, OIG questioned the reliability of data reported to
USAID for the reported number of jobs.

Audit of USAID/Iraq’s Agribusiness Program (Report No. E-267-11-002-P, May 16, 2011)

In May 2007, USAID/Iraq awarded a $343 million contract to LBG to expand the competitiveness of the
private sector in the agriculture and agribusiness sectors. An audit performed by OIG found that despite its
contractual obligations LBG fell short on all of its goals. These goals included: increasing agricultural sector
productivity; increasing total sales of USAID-assisted enterprises by at least $300 million; increasing and
monitoring the value of financial resources raised by assisted enterprises (i.e., agribusiness loans); and
generating at least 40,000 new agricultural and agribusiness jobs—20,000 full-time and 20,000 part-time.


56                                                                           USAID OIG Iraq Oversight Report
In almost all cases, LBG did not measure results, report results or show adequate documentation. The lack
of supportable agribusiness program results was attributed to several factors, foremost among them was
mismanagement. Although USAID/Iraq did propose—through the contract and through approval of the
contractor’s performance monitoring plan—a rigorous methodology for measuring results of the program,
the mission and the contractor did not use it and simply did not focus on managing for results. This was
evident through numerous problems with program implementation. For instance, USAID officials did not
receive results, did not enforce the requirement for reporting results and did not monitor the results that
were reported. Although over the three-year period this contract had more than five different contracting
officer technical representatives (COTRs), USAID could not explain why the performance monitoring plan
was not used. Documentation that was essential to project oversight—such as proof of any of the COTR’s
inspection and receipt or acceptance of deliverables and copies of other performance records, were not
included in any program files.

Because of these problems, USAID/Iraq did not track whether the agribusiness program goals were on or
behind schedule. Additionally, subcontracts lacked adequate documentation and grants with special
conditions as well as grants awarded to microfinance institutions were not monitored.

Review of USAID/Iraq’s Contractors’ Compliance With the Trafficking Victims Protection Reauthori-
zation Act of 2008 (Report No. E-267-11-002-S, December 12, 2010)

The William Wilberforce Trafficking Victims Protection Reauthorization Act of 2008, Public Law 110-457,
requires OIG to investigate contracts and subcontracts under which there is a high risk that the contractor
may engage in acts related to trafficking in persons. These acts include confiscation of an employee’s
passport, restriction of an employee’s mobility, abrupt or evasive repatriation of an employee, deception of
an employee regarding the work destination, and acts otherwise described in the Trafficking Victims
Protection Act of 2000.

This review assessed whether USAID/Iraq and its contractors have established sufficient controls to prevent
trafficking in persons and whether USAID/Iraq’s contractors and subcontractors engaged in trafficking-in-
persons practices. Because the majority of the third-country nationals working to implement the mission’s
program activities were professional staff at low risk of trafficking, the review focused on USAID/Iraq’s two
support contracts to Najlaa International Catering and GSI Business Services. These companies employed
low-skilled, low-wage, third-country nationals to provide food service, housekeeping, and maintenance, and
their contracts were valued at a total of $8 million dollars.

USAID/Iraq has established internal controls to manage the risk of trafficking in persons on its compound,
and the review found no indication that contractors and subcontractors on the two USAID/Iraq contracts
engaged in trafficking in persons. Third-country nationals employed under the contracts enjoyed more
freedom of movement in their free time than their U.S. counterparts, and none of the contract employees
complained of threats, abuse, or coercion.

Additionally, the employees indicated that their pay under the two contracts equaled or surpassed what
they had received from other employers in Iraq.




USAID OIG Iraq Oversight Report                                                                           57
After reviewing the report’s observations, the mission identified the most critical issue with potential for
trafficking as contractor staff members’ ability to return to their home countries.

In addition, one of the two USAID/Iraq contractors did not have employment agreements with its low-
skilled, low-wage staff, making them susceptible to abuse.

Survey of Security Incidents Reported by Private Security Contractors of USAID/Iraq’s Contractors
and Grantees (Report No. E-267-11-001-S, November 29, 2010)

Section 862(a) of the National Defense Authorization Act for Fiscal Year 2008 (Public Law 110-181)
contains provisions for the oversight of all private security contractors in areas of combat operations,
including Iraq and Afghanistan.

From July 1, 2007, to June 30, 2009, USAID/Iraq maintained a portfolio of contracts and grants with 12
implementing partners, who held 17 subcontracts for private security services in Iraq. According to
information provided by USAID/Iraq’s implementing partners, these 17 subcontracts for security services
incurred cumulative expenditures of $483 million was of December 31, 2009. USAID/Iraq reported that the
implementing partners incurred expenditures of $2.1 billion in program expenses over the same period;
therefore, security services accounted for approximately 23 percent of the implementing partners’ total
costs.

OIG’s survey of security incidents reported by private security contractors found that over 2 years,
USAID/Iraq’s implementing partners and their private security contractors had documented and reported
94 serious security incidents. Two of these, Research Triangle Institute and International Relief and
Development, accounted for 72 (74 percent) of the serious incident reports.

USAID/Iraq has taken numerous steps to implement recommendations from a prior OIG audit3 including
issuing a formal notice to partners notifying them of reporting requirements, modifying award documents to
require incident reporting, and ensuring that all private security contractors for USAID implementing
partners register with the Ministry of Interior.

Nevertheless, partners did not always provide sufficient oversight of their private security contractors
(PSCs) with respect to incident reporting. This lack of monitoring led to reporting deficiencies and missing
security incident reports. Additionally, none of USAID/Iraq’s implementing partners had established
documented internal procedures to monitor the reporting of security incidents to ensure that such incidents
were properly reported. Because jurisdiction of private security contractors has been turned over to the
Iraqi Government, it is critical that implementing partners and their PSCs adhere to policies, procedures, and
requirements.

Audit of USAID/Iraq’s Payroll Payments to Foreign Service Nationals, Third-Country Nationals,
and U.S. Personal Services Contractors (Report No. E-267-11-001-P, November 22, 2010)

In 2009, USAID/Iraq paid about $8.2 million in payroll, benefits, and allowances to its non-U.S. direct-hire
employees. This amount included approximately $6.5 million in payroll to 57 third-country nationals and

3   Audit of USAID/Iraq’s Oversight of Private Security Contractors in Iraq, Report No. 267-09-002-P, March 4, 2009.


58                                                                                USAID OIG Iraq Oversight Report
34 U.S. personal services contractors, $1 million in payroll to 43 Iraqi or Foreign Service National staff,
$100,000 in severance and retirement payments to nine Foreign Service National staff, and $564,000 in
involuntary separate maintenance allowances (for maintaining family members elsewhere than at the
foreign post of assignment) to 53 of its third-country nationals and U.S. personal services contractors.
Third-country nationals who work in Iraq are entitled to the same benefits and allowances as U.S. personal
services contractors, and the U.S. Government’s General Schedule pay scale determines both groups’
salaries. Foreign Service Nationals’ pay and benefits are established in the local compensation plan
prepared by the Department of State.

OIG performed this audit in response to a USAID/Iraq request. The mission request stemmed from concerns
about the frequent rotation of staff and the resulting risk of inaccurate salary payments. The objective of the
audit was to determine whether USAID/Iraq had properly calculated and disbursed payroll payments to its
Foreign Service Nationals, third-country nationals, and U.S. personal services contractors.

Payments to third-country nationals and U.S. personal services contractors were generally accurate. In
addition, payments for involuntary separate maintenance allowances were generally accurate.

Payroll and severance or retirement payments to Foreign Service Nationals were often inaccurate and
subject to systemic errors. Severance and retirement payments for 8 of 9 Foreign Service National
employees were not computed accurately, and overtime payments for 12 of 48 Foreign Service Nationals
were not computed accurately. Other errors came to light that, although not systemic or material, required
management attention.

Audit of USAID/Iraq's Implementation of the Iraq Financial Management Information System (Report
No. E-267-10-002-P, September 19, 2010)

The Iraq Financial Management Information System was designed to help the Iraqi Government formulate,
execute, and monitor central government budgets. The system was developed under two contracts between
USAID and BearingPoint Inc. that ran from July 2003 through July 2009 for a total cost of $37.4 million
(including $4.8 million from the U.S. State Department.)

Although BearingPoint completed a substantial amount of systems development, equipment procurement,
and training, the Iraq Financial Management Information System has not been fully implemented and has
not achieved its goals of helping the Government of Iraq formulate, execute, and monitor central
government budgets. The system was not being used as the Government of Iraq’s system of record, and the
system could not produce complete trial balances, useful reports for individual ministries and offices, or
information needed to perform bank reconciliations. It also could not support voucher numbers that would
uniquely identify individual ministries and offices or support multiple budgets for individual ministries and
offices.

These issues occurred for two main reasons. First, the contractor did not provide key contract deliverables,
including purchasing and budget modules, an offline data-entry tool, or enhanced reporting tools, and
participants were not satisfied with the training that the contractor had provided. Second, in the urgent
pressure to develop the system in postwar Iraq, the contractor did not follow certain best practices for
systems development, including obtaining functional user requirements, selecting a system on the basis of



USAID OIG Iraq Oversight Report                                                                             59
system and user requirements, developing a concept design, obtaining customer buy-in and support, or
conducting system testing. Had the contractor followed these best practices, it could have prevented many
of the problems we found. In addition, USAID/Iraq stated that a lack of support and commitment by some
officials within the Iraqi Ministry of Finance had hindered implementation of the system.

To address these issues, the report recommends that USAID refrain from funding further system
development efforts until the Iraq mission has developed a strategy for correcting system deficiencies.

USAID concurred with the recommendation and is not planning any further funding of the Iraq Financial
Management Information System because of a lack of support for it within the Iraqi Ministry of Finance.

Audit of USAID’s Internally Displaced Person Activities in Iraq (Report No. E-267-10-001-P, March 31,
2010)

USAID’s Office of Foreign Disaster Assistance (OFDA) provided emergency assistance to help Iraq’s 2.8
million internally displaced persons meet their basic needs. We found that OFDA’s partners had completed 90
percent of planned activities and that these activities had achieved goals of saving lives, alleviating human
suffering, and reducing the social and economic impact of humanitarian emergencies for internally displaced
and vulnerable persons. However, we also observed several significant issues requiring OFDA’s attention.

We found significant anomalies in signatures and fingerprints submitted as evidence of payments to
beneficiaries. As a result, we questioned $766,490 in incurred costs and referred the matters to our Office of
Investigations.

The program was also characterized by other kinds of overstatements about the number of service
beneficiaries. OFDA’s partners reported 33.7 million beneficiaries, but this figure overstated the population of
Iraq by 3 million individuals. In one case, 262,482 individuals reportedly benefited from the purchase of
medical supplies meant to treat only 100 victims of a specific attack.

The audit concludes that OFDA personnel extended five of seven awards beyond existing award completion
dates even though they lacked the authority to do so. After receiving these unauthorized award extensions,
the implementing partners incurred $10 million in additional costs. These unauthorized commitments
occurred because OFDA had not taken action to promptly address a prior OIG audit recommendation to
formally designate individuals authorized to manage the awards.




60                                                                           USAID OIG Iraq Oversight Report
Abbreviations
CEMG          Cardno Emerging Market Group

CEO           Chief Executive Officer

COTR          Contracting officer’s technical representative (now referred to as a contracting
              officer’s representative)

DCAA          Defense Contract Audit Agency

FY            fiscal year

IARA          Islamic American Relief Agency

IFES          International Foundation for Electoral Systems

IHEC          Independent High Electoral Commission

IRD           International Relief and Development Inc.

IT            information technology

LBG           Louis Berger Group Inc.

NGO           nongovernmental organization

OAA           Office of Acquisitions and Assistance, U.S. Agency for International Development

OFDA          Office of Foreign Disaster Assistance, U.S. Agency for International Development

OIG           Office of Inspector General, U.S. Agency for International Development

OMB           Office of Management and Budget, Executive Office of the President

PSC           private security contractor

UNAMI         United Nations Assistance Mission in Iraq

USAID         U.S. Agency for International Development



USAID OIG Iraq Oversight Report                                                                  61
62   USAID OIG Iraq Oversight Report
 

 

 

 

 

 

 

 

 

 

 

 

 

 

 

 

 

 

 

                    	
                    	
    USAID	Office	of	Inspector	General	
      1300	Pennsylvania	Ave,	NW	
        Washington,	DC		20235	
          www.usaid.gov/oig		
             202.712.1150 



 
